<html>
<title> - TRANSPORTATION'S ROLE IN CLIMATE CHANGE AND REDUCING GREENHOUSE GASES</title>
<body><pre>[Senate Hearing 111-1203]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 111-1203

 TRANSPORTATION'S ROLE IN CLIMATE CHANGE AND REDUCING GREENHOUSE GASES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-161 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 14, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     5
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     9
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    11
Udall, Hon. Tom, U.S. Senator from the State of New Mexico, 
  prepared statement.............................................    13
Specter, Hon. Arlen, U.S. Senator from the State of Pennsylvania.    44
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   155

                               WITNESSES

LaHood, Hon. Ray, Secretary, U.S. Department of Transportation...    13
    Prepared statement...........................................    16
    Responses to additional questions from Senator Cardin........    21
    Response to an additional question from Senator Klobuchar....    26
    Responses to additional questions from Senator Inhofe........    27
    Response to an additional question from Senator Voinovich....    31
McCarthy, Hon. Regina, Assistant Administrator, Office of Air and 
  Radiation, U.S. Environmental Protection Agency................    32
    Prepared statement...........................................    34
    Response to an additional question from Senator Cardin.......    40
    Responses to additional questions from:
        Senator Klobuchar........................................    41
        Senator Inhofe...........................................    42
Becker, Hon. Ralph, Mayor, Salt Lake City, Utah..................    57
    Prepared statement...........................................    60
    Responses to additional questions from:
        Senator Cardin...........................................    69
        Senator Klobuchar........................................    71
        Senator Inhofe...........................................    72
Bragdon, David, President, Metro Council, Portland, Oregon Region    73
    Prepared statement...........................................    75
    Responses to additional questions from:
        Senator Cardin...........................................    79
        Senator Klobuchar........................................    81
Winkelman, Steve, Director, Adaptation and Transportation 
  Programs, Center for Clean Air Policy..........................   100
    Prepared statement...........................................   102
    Response to an additional question from Senator Klobuchar....   121
    Responses to additional questions from Senator Inhofe........   122
Kuntz, Ray, Chief Executive Officer, Watkins and Shepard Trucking   124
    Prepared statement...........................................   126
    Response to an additional question from Senator Inhofe.......   139
    Responses to additional questions from Senator Klobuchar.....   142

                          ADDITIONAL MATERIAL

National Congestion Tables.......................................   157

 
 TRANSPORTATION'S ROLE IN CLIMATE CHANGE AND REDUCING GREENHOUSE GASES

                              ----------                              


                         TUESDAY, JULY 14, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, Udall, 
Merkley, Specter, Voinovich, Barrasso, and Alexander.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    This is our second hearing today, and I want to thank my 
colleagues. I know everybody is torn between the Supreme Court 
nomination, writing a health care bill, and working on a 
defense bill on the Senate floor. So, we understand.
    But we want to make sure, as we write our climate change 
legislation, that we are looking at every single area that will 
be affected. And here is Mr. Transportation coming now.
    As we work to pass legislation that will reduce our 
dependence on foreign oil, create millions of clean energy 
jobs, and protect our children from pollution, we need to 
consider global warming pollution from the transportation 
sector. Why? According to the EPA, transportation activities 
account for one-third of all U.S. global warming emissions.
    The Obama administration has already taken important steps 
this year to address global warming pollution from motor 
vehicles. I want to thank them for their action. And I want to 
thank Secretary LaHood, and, of course, Hon. Regina McCarthy, 
who are here with us.
    In May, the President brought together the Federal 
Government, the State of California, and the auto industry 
behind a nationwide program to cut new carbon emissions from 
vehicles and raise gas mileage requirements, along with new 
national automobile emissions standards that follow 
California's lead.
    On June 30th, the EPA finally granted California's request 
for a waiver providing the green light to my State and more 
than a dozen others to tackle tailpipe emissions of global 
warming pollution. The granting of this waiver will unleash 
innovative technologies that will create millions of new jobs 
as we move forward toward new, cleaner and more efficient 
vehicles. It will make our families and our communities safer 
and healthier since more efficient transportation reduces the 
smog and soot pollution which is associated with asthma and 
other respiratory disease.
    I think this fact is overlooked. I know Senator Lautenberg 
gets it because he always talks about watching a child with 
asthma. We do know that when we cut back on carbon emissions, 
we also cut back on that particulate matter that comes out of 
our vehicles.
    In my own State, entrepreneurs are already making great 
strides in developing highly efficient vehicles and advanced 
renewable fuels as well, some based on algae. To continue to 
achieve significant reductions in transportation emissions, we 
will need cleaner, more efficient cars, advanced clean burning 
renewable fuels, and development policies that reduce the 
distances Americans need to travel every day. We need to invest 
in better transit systems and other ways to help reduce 
emissions from the transportation sector.
    National global warming legislation is the very best way to 
unleash the power of American innovation from coast to coast to 
create the full array of solutions we will need to step up to 
this challenge.
    I certainly look forward to hearing from all of our 
witnesses here today on the role the transportation sector can 
play in reducing greenhouse gas emissions.
    Again, I want to say to Secretary LaHood how much I 
appreciate his being here today. He is the one who said that he 
wanted to personally be here. I commend him for that. He has 
been in so many of our States. He was just in our State at our 
port in Oakland talking about the incredible potential of our 
ports to be even greater economic engines.
    And, of course, Regina McCarthy, the Assistant 
Administrator, Office of Air and Radiation, at the EPA. And I 
want to thank my colleagues who are here for helping us get 
that nomination through, because her voice is really needed.
    So, I am giving everybody 5 minutes. I went under that, and 
I would encourage that, but it is up to you. We will give you 
up to 5 minutes. And Senator Voinovich will start. Is that 
right, Senator Voinovich? I am sorry, Senator Barrasso will 
start.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman.
    The Waxman-Markey bill is designed to make fossil fuel use 
more expensive. We heard that at our hearing this morning. 
Advocates say that we must make fossil fuel more expensive to 
change the behavior of businesses and consumers. That makes 
making everything that is powered by fossil fuels more 
expensive: your car, your home, your office.
    Fossil fuels power the airplanes, the trains, the trucks 
that we use to ship goods from farms and small businesses to 
the marketplace all across this country and abroad. All these 
things will be made more expensive because of the Waxman-Markey 
bill.
    Increasing the cost of bringing goods and services to 
market in a recession, at any time but certainly in a 
recession, is a recipe for disaster, for economic disaster. 
This is going to lead to lost jobs and lost economic 
opportunity.
    We cannot afford to lose any more jobs. In the month of 
June, we lost about a half-million jobs in the United States. 
The unemployment rate has hit 10 percent. Mandating that 
companies buy carbon credits or dramatically slash their 
emissions is only going to make matters worse.
    There is an article that appeared in Business Week, June 
15th, entitled A Dogfight Over Greener Air Travel. In it, the 
author states that the U.S. airlines face their first big 
deadline to meet European Union rules on emissions linked to 
global warming. That is when carriers landing in Europe will 
have to submit proposals to the European Union on how they plan 
to track the emissions.
    The article goes on to say that this is the first step 
toward tough European cap-and-trade laws requiring airlines to 
either slash greenhouse gases or pay for permits to emit. The 
article states, U.S. airlines are watching these developments 
anxiously, in part because they are already struggling with 
weak travel demand and the yo-yoing fuel prices. Nancy Young, 
the Air Transport Association's Vice President for 
Environmental Affairs, said having to purchase credits will 
stifle funding for the very innovation airlines must develop to 
cut emissions.
    The airline industry is not the only business struggling 
with weak consumer demand and already high fuel prices. The 
airline industry cannot afford these European regulations. By 
deciding to pass Waxman-Markey, the majority will increase 
their cost of doing business in an economic downturn.
    The legislation will also increase the cost of every small 
business by dramatically forcing them to pay more for 
everything that uses energy. Those costs will put businesses in 
debt or out of business. Jobs will be lost. Unemployment rates 
will continue to go up.
    This is an approach headed in the wrong direction. We need 
to keep business costs low so that businesses can expand and 
create new jobs. Now, we can do that by making American energy 
as clean as we can, as fast as we can, but without raising 
prices on businesses and on American families.
    Our goal must be to do everything we can to keep red, white 
and blue jobs that we have now, and then also find ways to add 
green jobs. We need them all. Let us move forward with those 
goals in mind.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    On my list, I have Senator Lautenberg next. No, Senator 
Carper is first. I am so sorry.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you so much.
    To our witnesses, welcome. To this panel, it is nice to see 
that you both could be here, and the panel that will follow 
you.
    A quick comment in response to Senator Barrasso's words.
    We met earlier today, a group of us interested Democrats 
met earlier today with Congressman Boucher, Congressman Waxman 
and Congressman Inslee. Among the things we talked about were 
the costs of the Waxman-Markey bill.
    We learned that CBO, which is neither Democrat nor 
Republican but non-partisan, has actually put a price tag, per 
family, on the Waxman-Markey bill, and said it works out on the 
annual basis of $170 per family. That is about 50 cents per day 
per family, or about the price of a postage stamp. And the 
lowest 20 percent of families are basically, the lowest 
quintile if you will, are exempted from those costs, basically, 
at all. So, I would ask us to keep that in mind as we go 
forward.
    Madam Chairman, I want to thank you for holding this 
hearing. We have examined, as you know, many causes and 
solutions to climate change. But one area that has not received 
enough attention is the transportation sector.
    Transportation accounts for some 30 percent of greenhouse 
gas emissions in our country. If we do not curb emissions from 
transportation, we will either fail to reduce greenhouse gas 
emissions to the level scientists say are necessary, or we will 
have to ask other sectors to make up the difference.
    When the transportation sector has been considered before, 
the focus has always been on vehicle fuel economy or tailpipe 
emissions. In the last, Congress I was extremely proud to play, 
with my colleagues, a role in increasing the CAFE standard for 
cars and trucks for the first time in some 30 years. The new 
standard requires the entire U.S. fleet of cars and trucks to 
average about 35 miles per gallon by 2020, and President Obama 
recently announced that we will reach 35 miles per gallon by 
2016.
    In the same bill that raised CAFE, Congress also 
established a renewable fuel standard requiring that 36 billion 
gallons of renewable fuel is sold in 2020, up from 9 billion 
today. Taken together, the CAFE and the renewable fuel standard 
are expected to save $2 million barrels of oil per day and save 
consumers more than $80 billion.
    While this is a major improvement, we must remember that 
our goal is to reduce greenhouse gases by 60 to 80 percent. We 
need to look for other ways to make the transportation system 
cleaner in this country.
    In March, I introduced, along with Senator Arlen Specter, 
the Clean Low Emission Affordable New Transportation Efficiency 
Act, known as CLEAN-TEA. CLEAN-TEA reserves some 10 percent of 
allowance allocations and dedicates those funds to funding 
transportation projects that reduce greenhouse gas emissions.
    Ten percent of allocations might sound like quite a bit. 
But, as I mentioned before, the transportation sector is 30 
percent of the problem and growing faster. Not slower, but 
growing faster than any other sector. In addition, projects 
funded with these allocations will create jobs and reduce the 
transportation expense of Americans. I believe this is a 
critical piece of the puzzle which, if left out, hampers the 
effectiveness of our overall reduction efforts.
    In 1975, you will recall, we created the first CAFE 
standards. But, at the same time, we closed down transit 
systems and built homes far from workplaces, schools, groceries 
and doctors. As a result, driving increased by 150 percent, 
and, therefore, even though cars got significantly more 
efficient, American use of oil in the transportation sector 
increased by some 50 percent. We cannot afford to make that 
mistake again.
    Last year, when gas prices went to $4 per gallon across our 
country, Americans sought ways to save money by driving less. 
Many of them found that their transportation options were, 
unfortunately, quite limited. Their neighborhoods had no 
sidewalks, and many of their communities had little or no 
transit service. Those who had options exercised them, but 
those who did not either had to pay the price of gas and skimp 
elsewhere or reduce the quality of their life. That is 
unacceptable.
    We fund our transportation system through gas tax, which 
goes to say that we pay for roads and transit by burning 
gasoline. When people drive less, our transportation budgets 
dry up. So States and localities that seek to reduce oil use, 
lower greenhouse gas emissions and save their constituents 
money receive smaller transportation budgets. We ought to be 
rewarding them by sending money based on how much they reduced 
emissions.
    As we develop a climate change bill, we must consider how 
every sector of the economy can play a part in lowering 
greenhouse gas emissions. When it comes to the transportation 
system, we, right here in Congress, have a lot to say about how 
that system is developed, how efficient it is, and how 
polluting it is. We should make sure that as we tell American 
businesses to get their house in order, we clean up our act as 
well.
    By incorporating transportation provisions in the next 
climate bill later this year, we have the chance to make 
progress addressing many problems at once, finding additional 
funding for transportation infrastructure, building money, 
saving transportation alternatives, and lowering greenhouse gas 
emissions. This is an opportunity that we cannot afford to 
waste.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    Senator Inhofe, since you are Ranking, I would call you or 
Senator Voinovich, whichever of the two.
    Senator Inhofe. I will wait, that is fine.
    Senator Boxer. OK.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Madam Chairman.
    I appreciate the witnesses' being here today.
    Senator Carper, I was interested in the CBO numbers. But I 
want to point out that those CBO numbers were based on the EPA 
analysis, and I have asked the Chairman to ask the EPA to re-
run that analysis because it does not include some information 
that it should as it did last year when they came up with a 
comprehensive analysis of the bill.
    Madam Chairman, thank you for holding today's hearing. I 
think we both agree that an open dialog among members is 
helpful. As we move ahead, I am anticipating the more 
substantive hearing on the legislative texts that you and I 
discussed and that you promised would occur.
    Having a hearing on transportation's role in climate change 
is essential given the sector is responsible for roughly one-
third of the greenhouse gases released in the United States. 
Yet, as we seek policies to reduce these emissions, we must do 
so in a way that does not cripple an industry that our economy 
relies upon.
    According to the Bureau of Transportation Statistics, the 
transportation-related goods and services accounts for more 
than 10 percent of the U.S. gross domestic product. Only three 
sectors, housing, healthcare and food, contributed a larger 
share of the GDP than transportation.
    Transportation also contributes to the economy by providing 
millions of jobs. Indeed, 1 of every 7 jobs in the United 
States is transportation related. The transportation industry, 
including direct and indirect jobs, employed more than 20 
million people in 2002, accounting for 16 percent of the U.S. 
total occupational employment.
    Indeed, there are very few options available to the 
industry to reduce emissions, and many of these options are 
already being employed. These options include, one, increased 
vehicle fuel efficiency, which is already in the EISA through 
increased CAFE standards and through the new DOT tailpipe 
emissions standards; two, the blending of lower carbon 
additives with gasoline, which is already handled through the 
renewable fuel standard; and three, by replacing transportation 
fuels with something else.
    The Waxman-Markey treatment of transportation fuels creates 
numerous problems. It will do little to reduce greenhouse gases 
in the transportation sector and instead could significantly 
raise gasoline prices for all consumers and further erode our 
Nation's energy security.
    In my opinion, the caps are completely severed from what 
technology is able to deliver in terms of reduced emissions. 
This is a problem that extends beyond the transportation 
sector. The main cost containment mechanism in the bill, 
international offsets, also allows for off-shoring of literally 
tens of billions of dollars annually to meet compliance 
obligations that are otherwise unachievable.
    The disconnects between what technology is capable of and 
what the bill requires is particularly troubling for our 
Nation's refiners. Because there are limits on our ability to 
reduce carbon in transportation fuels, what we are talking 
about here is sun-setting an industry.
    The Waxman bill places disproportionate compliance 
obligations on producers of transportation fuels than for other 
major industries. Indeed, the bill holds refiners responsible 
for their own emissions, plus the emissions from the use of 
petroleum products, gasoline, diesel, jet fuel, home heating 
and so forth.
    In total, refiners are responsible for approximately 44 
percent of all covered emissions. Yet, the legislation grants 
them a mere 2 percent of these allowances. By contrast, the 
electric suppliers, who are responsible for 40 percent, get a 
35 percent allowance.
    This places an extremely high financial burden on the 
industry. Indeed, many refiners have indicated to me that they 
will not be able to pay for these costs in the face of 
decreasing demand and increased foreign competition.
    And because refiners are not covered by the bill's 
provision which attempts to protect manufacturers from 
international competition, the legislation will force the off-
shoring of U.S. refining capacity and jobs, leaving us at the 
mercy of foreign nations for refined gasoline supplies. Our 
Nation has over 700 million gallons of crude oil stored at the 
Strategic Petroleum Reserve for emergency. Of what use will 
that be if we do not have the refineries to refine it?
    To the extent that the price increases can be passed to the 
consumers, the price increases will be significant. In fact, 
the same CBO analysis that was released indicates that the bill 
could add as much as 77 cents to the price of a gallon of 
gasoline over the next decade, with a significant impact on 
families, workers and industry.
    What is clear is the combination of policies appeared by 
Congressmen Waxman and Markey in their climate change and 
energy bill will have significant impact on consumers including 
the poor, the elderly, those on fixed incomes and the 
businesses that drive our economy. This has been confirmed by 
the President, echoed by the Treasury Secretary and OBM 
Director.
    In fact, increasing prices is the intent of the bill's 
authors. For years now, proponents of cap-and-trade legislation 
have been calling for a price signal on carbon. So, the story 
goes, it will induce consumers to change behavior, thus 
reducing their emissions.
    While I believe climate change is an issue that needs to be 
addressed, we must not lose sight of the impacts that the 
policies will have on America's economy, communities, workers 
and families.
    I think I would like to hear from the witnesses today about 
where they come out on all of this.
    Thank you.
    Senator Boxer. Thank you.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, for holding 
this hearing.
    I want to say to Secretary LaHood that I have watched you 
develop your views of how a Secretary of Transportation will 
operate, and I have seen wonderful signs of progress, and I 
commend you and urge you to carry on.
    Just to note, we are at a transformative moment in the way 
Americans travel and ship their goods. The choices this 
committee makes in the next few weeks can shape our country and 
our future generations, attitude and health.
    Right now, greenhouse gases from the transportation sector 
account for one-third of our country's total emissions, and 
emission from transportation come to everybody's neighborhood. 
There is no community that is free, and there is no doorway 
that is free from effects of toxic emissions from 
transportation and vehicles.
    With America's population expected to hit 420 million 
people by 2050, it could mean even more cars and trucks on the 
road producing emissions that cloud the atmosphere and create 
the greenhouse gases that warm our planet.
    So, we have a choice. We either hasten the effort to find 
alternatives, or run the risk of impairing the health of our 
children. Senator Boxer mentioned my interest in asthma. I have 
a child who has asthma. I note that the growth of asthma among 
young people over these last years is enormous. They are 
affected by bad air which comes, ultimately, from the fact that 
our climate is changing and man is soiling the atmosphere. So, 
we have a choice. And the choice must include every sector of 
our economy working as one.
    When it comes to transportation, it means trains, subways 
and barges that are more energy efficient and less destructive 
to our planet. For the last few years, we have seen Amtrak, for 
instance, break ridership records.
    And I point out that the statistics are significantly 
threatening. In 1990, there were 189 million vehicles on the 
road. That is automobiles, buses and trucks. Sixteen years 
later, we had a gain of 60 million vehicles. That is in a 
period of 16 years. So, the condition is not going to improve 
if we stand by and watch the growth in the number of vehicles 
on our roads.
    Just look at Amtrak. In fiscal year 2008, Amtrak's 
ridership hit more than 28 million riders, marking the sixth 
straight year of gains. People want the convenience and 
reliability of public transportation. But they also want a 
better quality of air and the environment.
    We have seen similar gains with commuter trains, buses and 
subways. The numbers are improving enormously. We just have to 
work harder to keep up with the availability of public transit. 
These gains prove an essential point. If we provide convenient, 
reliable and efficient mass transportation options, Americans 
will choose them. And by making that choice, they are taking 
cars off the road and greenhouse gases out of the air.
    Moving travelers and goods by rail uses 20 percent less 
energy than moving the same travelers or goods with cars or 
trucks. Yet Federal investment in rail and other efficient 
modes of transportation has been almost non-existent compared 
to investments in highways and aviation. That needs to change. 
That is why the recovery law that we passed, and President 
Obama signed, contains more than $8 billion for high-speed 
rail. This money will not only improve faster rail service and 
create jobs, but it will also fight climate change.
    That is why the last Congress overwhelmingly passed a 
landmark law to prepare Amtrak and the States for the next 
generation of travelers. And that is why Senator Rockefeller 
and I have introduced a bill that would take a comprehensive 
and national approach to transportation planning and set clear 
goals for reducing emissions and congestion. Now, this 
committee in the Senate has to lead the way by passing a strong 
global warming bill that makes long overdue investments in 
developing energy efficient transportation options.
    We do not want to see fewer jobs in this country. We cannot 
afford to do that. But we can plan for better jobs accompanying 
movements to a greener climate, a cleaner atmosphere, and to 
have that become a yardstick for our future.
    Senator Boxer. Thank you, Senator.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I say to my good friend from Delaware, do not get too 
wrapped in this CBO thing because, one of the many faulty 
assumptions they have is that the revenues that will come in as 
a result of higher price for energy are going to rebated back 
to the people. Do you really think, in this Washington 
environment, that these things are going to rebated back? I 
think probably not.
    This is one of the areas where the Chairman and I do get 
along in terms of wanting a robust transportation system. We 
have talked to Secretary LaHood about this. We both want to 
see, if there is an extension coming up, perhaps tomorrow, from 
this committee, that we try to get this thing through because 
this is something that is not just a jobs bill, but is 
something that has to be done. We are way behind.
    I think, sometimes, about the 2005 bill and, as robust as 
it was, that did not really even maintain what we have today. 
The committee is going to consider the extension, and I look 
forward to that.
    But today we are examining a different aspect of the 
transportation sector, and that is the role it would play under 
a cap-and-trade system. There is some interesting debate about 
what its role would look like, but there is no debate about 
this: cap-and-trade will make gasoline more expensive for 
American consumers.
    The consumers represented here today are America's 
truckers. Trucking is a highly competitive industry with very 
low profit margins, sometimes no profit margin. This explains 
why, as fuel prices increase, many trucking companies are 
reporting lower profits if they are reporting any profits at 
all.
    In 2007 and 2008, for example, over 5,000 trucking 
companies with at least five trucks went out of business, and 
thousands of independent operators, drivers and employees have 
lost their jobs. If we enact cap-and-trade legislation, fuel 
prices will rise, and more jobs in the trucking sector will be 
lost.
    Supporters of cap-and-trade say it is all worth it because 
their policy would help break our dependence on foreign oil. 
Just look at EPA which, in its analysis of the Waxman-Markey 
bill, actually predicts that cap-and-trade will barely make a 
dent in petroleum use. In fact, the opposite is true, which is 
that passing this legislation will make us even more dependent 
on imports of refined petroleum products like gasoline, diesel, 
jet fuel and home heating oil.
    The ISCF international study on the impacts of last year's 
Lieberman-Warner climate legislation indicate refining 
investment would drop over $11 billion in 2020 due to the 
burdensome costs cap-and-trade would impose on the U.S. 
refining sector. Moreover, the same analysis estimated that 
petroleum product imports would double from 15 percent to 
nearly 30 percent by 2020.
    It is kind of interesting, if you look back on the 
discussions we had over 10 years ago on Kyoto, the studies that 
came out such as the Charles River Associates, the Wharton 
School, the MIT, all of them consistently talk about the high 
costs of this thing. And then to come out and say, for some 
reason, that this is going to be different, it is still cap-
and-trade, we are still talking about the same thing.
    It is a little bit laughable when people say we want to do 
something about dependence on the Middle East to run this 
country called America when those individuals are the very ones 
who have a moratorium on drilling offshore, and on oil sands, 
on shale, in the Western United States, and we could become 
independent overnight if we just lift those moratoria.
    Whatever the solution is, we want to expand all domestic 
production, all forms of energy. That is our position, I think, 
on this side of the aisle. We want nuclear, clean coal, oil, 
natural gas, wind, geothermal. You name it, we want it. Bur we 
want it all. We want to leave everything on the table. I think 
we are the only country in the world that does not produce its 
own assets. So that is the thing that we need to change.
    So, whatever the solution, we cannot lessen our dependence 
on foreign oil through taxes, mandates and bureaucracy. We can 
only do it by opening access to all forms of domestic energy 
and occurring innovation and the creation of new technologies 
right here at home.
    Thank you, Madam Chair.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Madam Chairman, you and I both know the importance of 
robust funding for our Nation's highways and bridges and 
ensuring the Highway Trust Fund is able to meet its 
commitments. I look forward, as always, to working with you on 
passing a highway bill extension and Trust Fund fix in the next 
2 weeks.
    As we have discussed many times in this committee, the 
Highway Trust Fund is going to run out of money sometime in the 
next few weeks and will require an infusion of $5 billion to $7 
billion to get through the rest of fiscal year 2009. Additional 
funds will be needed to fund the highway and transit programs 
in future years.
    This committee is going to consider an 18-month extension 
later this week. The Trust Fund will require a total of $20 
billion to get through this 18-month period according to this 
Administration. It is critical to fix this shortfall. Failing 
to do so will delay planned and ongoing road projects and 
result in people being laid off. This would be unacceptable any 
time, but more so during today's economic downturn.
    But today, we are examining a different aspect of the 
transportation sector--that is, the role it would play under a 
cap-and-trade system. There is some interesting debate about 
what its role will be. But there's no debate about this: cap-
and-trade will make gasoline more expensive for American 
consumers. What's more, it will actually increase our 
dependence on foreign oil.
    The consumers represented here today are America's 
truckers. Trucking is a highly competitive industry with very 
low profit margins. This explains why, as fuel prices increase, 
many trucking companies are reporting lower profits, if they 
are reporting any profits at all.
    In 2007 and 2008, for example, over 5,000 trucking 
companies with at least 5 trucks went out of business, and 
thousands of independent operators, drivers, and employees have 
lost their jobs. If we enact cap-and-trade legislation, fuel 
prices will rise, and more jobs in the trucking sector will be 
destroyed.
    For the sake of argument, let's use EPA's projected cost of 
carbon under cap-and-trade, which is about $20 per ton for 
CO<INF>2</INF>. According to EIA estimates, Americans consumed 
about 268 billion gallons of finished petroleum products such 
as gasoline, diesel fuel and jet fuel in 2008. What does this 
mean? Well, according to the Union of Concerned Scientists, in 
testimony before the House Energy and Commerce Committee, this 
would translate into an increase of 20 cents per gallon of 
gasoline for American consumers.
    If we take a step back and look at the big picture, this 
means consumers would pay almost $54 billion more annually for 
gasoline, diesel fuel, jet fuel and other petroleum products. 
And that is a low-ball estimate. As the cost of carbon 
increases over time--in addition to fluctuations in the global 
price of oil and the costs of more refined product being 
imported because of higher operating costs to refiners in the 
United States--these costs estimates are likely to be much 
higher.
    Supporters of cap-and-trade claim it will help break our 
dependence on foreign oil. In fact, the opposite is true: 
passing this legislation may make us even more dependent on 
imports of refined petroleum products like gasoline, diesel, 
jet fuel, and home heating oil.
    Refining trends are not encouraging. Many of the new 
refinery capacity expansions abroad are being built to produce 
fuels solely for the U.S. market. According to a recent article 
in the publication OPIS about Indian refining company Reliance 
Industries, ``Reliance's plan to sell oil products from its new 
580,000-barrel per day Jamnagar refinery to the U.S. is 
beginning to take shape as the Indian refiner secured an 
additional 1 million barrel storage space at BORCO in the 
Bahamas.'' The 580,000 barrel per day figure alone represents 
more than 6 percent of U.S. daily gasoline consumption. This 
number is from one foreign refinery.
    An ICF International study on the impacts of last year's 
Lieberman-Warner climate legislation indicated refining 
investment would drop over $11 billion in 2020 due to the high 
costs cap-and-trade would impose on the U.S. refining sector. 
Moreover, that same analysis estimated that petroleum product 
imports would double from 15 percent to nearly 30 percent by 
2020.
    Despite routine denial from environmentalists, it's clear 
that we will be using petroleum for decades to come. This is no 
secret; it's a fundamental fact of everyday life. So let's get 
on with it: let's expand domestic production of all forms of 
energy--nuclear, clean coal, oil, natural gas, wind, 
geothermal, you name it. Just last week, I introduced 
legislation to spur development of natural gas vehicles--which 
is one of many innovative ways to lessen our dependence on 
foreign oil.
    Whatever the solution, we can't lessen our dependence on 
foreign oil through taxes, mandates, and bureaucracy. We can 
only do it by opening access to all forms of domestic energy 
and encouraging innovation and the creation of new technologies 
right here at home.

    Senator Boxer. Thank you very much, Senator Inhofe.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chairman.
    On the issue of climate, picking up where we left off this 
morning in our discussion on climate change and energy, you 
know, we have a spectrum of opinions in the U.S. Senate. We 
have some people who believe that it is a hoax, and we have 
some people who are ready to jump off a cliff. I am sort of, 
well, I am not ready to jump off a cliff by a long shot, but I 
believe that it is enough of a problem that we ought to buy 
some insurance.
    I believe there are some other important issues before the 
American people that we have to consider, some of which Senator 
Inhofe just mentioned, such as the independence of our energy 
system, not relying on other countries too much, having large 
amounts of electricity, and especially having cheap energy. 
High priced energy drives jobs overseas looking for cheap 
energy. I mean, the Alcoa plant shut down in Tennessee waiting 
on a cheaper energy contract from TVA.
    Senator Leahy says that it will stop its expansion if the 
Waxman-Markey bill passes. Eastman Chemical hires 10,000 or 
12,000 people. So, costs matter. We should be looking for the 
cheap, easy way to do this, not for the hard, expensive way to 
do it.
    That is why, this morning, I was suggesting, why do you 
not, you know, if you are sitting around saying I really care 
about climate change and 40 percent of the carbon is 
electricity or coal-fired power plants, and nuclear power 
produces zero carbon and 70 percent of our pollution-free 
carbon-free electricity, why would we not build 100 new plants?
    Now we are talking about transportation. I think that is 
about as easy. I mean, transportation is about 30 percent 
carbon and greenhouse gases. Well, why do we not put a low-
carbon fuel standard on our vehicles? And gradually ratchet it 
down. We could do that in such a way that we actually lowered 
fuel prices, instead of raised them, because we have an 
alternative. We have electric cars. We have had testimony that 
we could electrify half our cars and trucks in the next 20 
years without building one new power plant if we plug them in 
at night.
    It is much more difficult over on the electricity side 
because we have not built a new nuclear plant in 30 years, so 
something is stopping it, even though France is 80 percent, and 
Japan and India and China and everybody else is going ahead.
    But back to transportation. Why would we construct this big 
contraption of payoffs and allowances and taxes and mandates 
and interference in the free market that is in the Waxman-
Markey bill when all we have to do is simply say, let us start 
with carbon.
    People say we want an economy-wide climate change bill. We 
do not, really. I mean the Waxman-Markey bill is 83 percent of 
the economy and all of the economy-wide bills, so-called, that 
have come up here are 75, 80 or 83. Coal plants are 40 percent, 
transportation is 30 percent, so why not take the 70 percent 
and the cheap, easy way instead of going the hard way with all 
of these taxes?
    As to the fact that it does not cost anything, well 
somebody is going to be paying up to $100 billion a year. 
Somebody is. And that is about $1,000 per family.
    Dr. David Greene at the Oakridge National Laboratory, one 
of the most effective persons on transportation fuels, 
testified several times before this Congress, before this 
committee, on behalf of higher CAFE standards. When he did that 
on November 13, 2007, he also said that an economy-wide cap-
and-trade is inefficient in reducing carbon in transportation 
because it would not raise the price of gasoline enough to 
change human behavior.
    Why would we deliberately go out and raise everybody's gas 
tax? You know how much people really like that. Why would we do 
that if it does not reduce carbon? I mean, that is doing it the 
hard way and inviting opposition.
    So, what started out to be an effort to reduce carbon to 
deal with global warming has turned out to be a byzantine 
construction of a contraption of taxes and mandates that may 
not do anything, when, instead, we could be building nuclear 
power plants for electricity and using a low-carbon fuel 
standard for carbon, and nothing else, leaving alone the cow 
tax, all of these cement companies, auto companies, leave them 
all alone. Let us take 70 percent of the economy and do 
something that actually works.
    I will be interested in talking more about the low carbon 
fuel standard and why that is not sufficient and more 
efficient.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Udall, you arrived at the moment of your opening 
statement. It is perfect timing.
    Senator Udall. I defer. I want to hear from these brilliant 
witnesses here. Thank you.
    Senator Boxer. All right. No pressure, though.
    Senator Udall. I will put my opening statement in the 
record.
    Senator Boxer. We will do that, without objection.
    Senator Udall. Thank you.
    [The prepared statement of Senator Udall follows:]

                     Statement of Hon. Tom Udall, 
               U.S. Senator from the State of New Mexico

    Exactly 1 year ago today, a barrel of oil was $146.95, 
about the time that American cars, trucks and airplanes came to 
a screeching halt. Over the last month prices have been 
``only'' $60 or $70, about where they were after Hurricane 
Katrina caused a huge price spike.
    I think that most drivers and truckers in America believe 
we are going to see $150 oil and $4-$5 gasoline and diesel 
sometime again in the not-too-distant future. The era of cheap 
oil is over, and fossil fuels are unsustainable. Seventy 
percent of what is left of the world's oil is in the Middle 
East, Russia and Venezuela. We consume 25 percent of the 
world's oil and only have 3 percent of the supply--a figure 
that includes areas that we are not currently producing.
    Every time you fill your tank, 40 percent of your gasoline 
bill goes to foreign oil--an oil dependence tax on consumers 
that it is likely to go up in the future as oil supplies 
diminish.
     In 2008, OPEC projected a dip in supply over the next 5 
years.
     In 2007, the Government Accountability Office, the non-
partisan investigative arm of Congress, said the U.S. should 
prepare for the decline of global oil supplies.
     In November 2007, the Wall Street Journal reported ``the 
world is approaching a practical limit to the number of barrels 
of crude oil that can be pumped every day.''
    We could follow to the naysayers who argue that tackling 
clean energy and climate change is too expensive, but if we do, 
we will still be stuck with three terrible costs.
    (1) We will still continue to pay a 40 percent oil 
dependence tax on each gallon of gasoline.
    (2) We will lose the economic race for leadership in clean 
energy jobs.
    (3) We will hand down a Nation to our children whose farms, 
forests, cities, mountains, and coastlines are irrevocably 
changed for the worse.
    Or we can follow the President and the House of 
Representatives and realize that our window to act is now. The 
House bill is not perfect, but we should work to improve it, 
not to kill it.
    We need to put a market price on carbon and greenhouse gas 
emissions to reflect their true cost on our national security, 
our economy, and our environment.
    That price will become a huge market incentive for a 
sustainable portfolio of efficiency, biofuels, batteries, 
natural gas, and fuel cells that will transform our energy 
economy away from oil dependence.

    Senator Boxer. Well, it is our great honor to turn to our 
distinguished panel. First will be Hon. Ray LaHood, Secretary 
of the United States Department of Transportation.
    Mr. Secretary, the floor is yours.

           STATEMENT OF HON. RAY LaHOOD, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. LaHood. Thank you, Chairman Boxer, Ranking Member 
Inhofe and members of the committee for inviting me to discuss 
transportation's role in reducing the impact of climate change 
and cutting greenhouse gas emissions and in lessening our 
dependence on foreign oil.
    These are very high priorities for President Obama's 
administration. We are committed to taking aggressive action to 
move the United States toward a clean energy environment that 
will create jobs, spur innovation and help make our communities 
more livable and sustainable.
    The Department of Transportation plays a key role in 
meeting these goals. The transportation sector accounts for 
nearly one-third of all greenhouse gas emissions in the U.S., 
and nearly two-thirds of that total is generated by passenger 
cars and light duty trucks.
    Clearly, we must take action to make all forms of 
transportation more fuel efficient while stepping up efforts to 
introduce low-carbon fuels and alternative power sources for 
all types of vehicles from cars and trucks to buses and rail 
systems.
    We are coordinating with the Environmental Protection 
Agency to develop new, coordinating tailpipe emissions and 
fuel-economy standards for 2012 through 2016. And we are 
leveraging technology to better manage traffic congestion and 
other factors that directly affect fuel consumption and 
emissions.
    However, while these actions are important, they are not 
sufficient to take us where we need to go. If we were to 
achieve a 55 mile per gallon fuel efficiency standard in the 
coming years, carbon emission levels from the transportation 
sector would still only decline modestly.
    In order to achieve our goals, we must implement policies 
and programs that will reduce total vehicle miles traveled. 
This means providing communities with additional transportation 
choices such as light rail, fuel-efficient buses, and paths for 
pedestrians and bicycles that intersect with transit centers. 
These efforts would also reduce household transportation costs, 
strengthen local economies, lower traffic congestion and reduce 
our reliance on foreign oil.
    Our strategy also calls for investing transportation 
dollars in coordination with housing investments and economic 
development policies. By doing so, we can promote strong 
communities with mixed income housing located close to transit 
in walkable neighborhoods. Last month, we took an important 
first step toward this goal. HUD Secretary Donovan, EPA 
Administrator Lisa Jackson and I announced a new partnership to 
coordinate planning for, and Federal investments in, housing, 
transportation and water infrastructure so that we may create 
more sustainable communities.
    This approach is enormously important to ensure that 
citizens in urban, suburban and rural communities have access 
to jobs, central business districts and other services without 
relying solely on private automobiles. In addition to 
supporting our environmental goals, this approach also helps 
preserve mobility for older citizens as well as those who are 
transit dependent.
    We strongly believe that America needs a transportation 
program that seeks to bring down total vehicle miles traveled 
by redefining what livable, sustainable communities are all 
about. Our livable community partnership is a climate strategy, 
and it is an essential part of bringing down greenhouse gas 
emissions from the transportation sector.
    Multi-modal transportation options, small community 
planning, smart community planning and efficient alternative 
fuel consumption are the hallmark of this approach. And we look 
forward to working with Congress to achieve these important 
goals in both an overall climate change strategy and a surface 
transportation reauthorization bill.
    I look forward to your questions.
    [The prepared statement of Secretary LaHood follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    Senator Boxer. It is my pleasure to introduce Hon. Regina 
McCarthy, Assistant Administrator, Office of Air and Radiation, 
United States Environmental Protection Agency.
    Administrator.

  STATEMENT OF HON. REGINA McCARTHY, ASSISTANT ADMINISTRATOR, 
  OFFICE OF AIR AND RADIATION, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. McCarthy. Thank you.
    Chairman Boxer, Ranking Member Inhofe and members of the 
committee, I want to thank you for the opportunity to testify 
today on transportation's role in reducing greenhouse gas 
emissions and moving our country toward a clean energy economy. 
I am pleased to offer this testimony together with Secretary 
LaHood.
    Let me start with some important facts that underscore the 
challenge we face in developing a low-carbon transportation 
sector.
    Today, transportation accounts for 29 percent of all U.S. 
greenhouse emissions, and that percentage keeps increasing. 
From 1990 to 2007, greenhouse gas emissions in this sector rose 
by 29 percent, while vehicle miles traveled increased by 40 
percent. And this large and growing sector is almost wholly 
dependent on a single fuel. Transportation alone accounts for 
over 70 percent of U.S. oil consumption.
    Transportation sits at the convergence of the climate 
change and energy security debate, and effective policies here 
can make tremendous progress toward a healthier planet and a 
more secure Nation. Congress clearly recognizes the 
opportunities. Recently, the House of Representatives passed 
the American Clean Energy and Security Act. In addition to 
covering transportation through an upstream cap, the bill 
includes engine standards, measures to help address greenhouse 
gas emissions from existing fleet vehicles, and tools to help 
States and cities account for greenhouse gas impacts in their 
transportation planning.
    This kind of comprehensive approach is necessary if we are 
to make progress toward a low-carbon transportation future.
    Let me describe a few of the steps the Administration has 
already taken. In May, President Obama announced a new national 
policy to establish, for the first time, uniform Federal 
standards to regulate both fuel economy and greenhouse gas 
emissions from cars and light duty trucks. This historic policy 
reflects unprecedented collaboration and consensus between the 
Federal Government, States, and private industry. EPA and the 
DOT are working together to develop this program. The benefits 
of these standards will be significant, bringing about 
cumulative greenhouse gas reductions of approximately 900 
million metric tons and fuel savings of approximately 1.8 
billion barrels.
    Progress has also been made to reduce greenhouse gas 
emissions from heavy duty and non-road vehicle engines. But 
more needs to be done. Together, these sources comprise 42 
percent of all transportation greenhouse gas emissions, and 
that percentage keeps growing.
    When addressing this sector, we also need to consider 
opportunities to reduce black carbon. Scientists are learning 
more about black carbon every day. However, we do know that it 
significantly contributes to warming and diesel engines are the 
single, largest source of black carbon in the United States.
    Because of the link between particulate matter and black 
carbon, EPA has already been able to bring about large 
reductions in black carbon through our heavy duty and non-road 
emission rules. Our voluntary diesel retrofit is achieving 
additional reductions from the existing fleet. But again, more 
needs to be done.
    EPA is also making progress on another major policy that 
will impact greenhouse gas emissions from the transportation 
sector, our expanded Renewable Fuel Standard. The Energy 
Independence and Security Act of 2007 mandates that 
transportation fuels include 36 billion gallons of renewable 
fuels by 2022.
    In May, the Administrator signed a notice of proposed 
rulemaking to implement these new standards. We are now using 
this comment period for the rule to conduct a further 
scientific and public review of EPA's work, including our 
comprehensive methodology to evaluate the greenhouse gas 
impacts of these biofuels.
    In an effort to address emissions for our existing fleets, 
EPA has been implementing our SmartWay Transport Program, where 
we have joined more than 1,500 industry partners to reduce fuel 
consumption in the freight sector.
    Providing incentives to reduce the number of miles we drive 
must also be part of the solutions. Investments in public 
transportation and making communities more walkable results in 
less driving, less petroleum use and fewer greenhouse gas 
emissions. Fewer vehicle miles traveled also reduces criteria 
pollutants and can provide greater protections from the 
debilitating health impacts of air pollution.
    EPA is pleased to have joined DOT and HUD in the 
Partnership for Sustainable Communities. We congratulate 
Secretary LaHood for his leadership in this partnership, and we 
pledge our continued efforts together.
    I would like, in closing, to just thank the committee for 
keeping transportation a strong component part of our clean 
energy solution.
    I would be pleased to answer any questions that you may 
have.
    [The prepared statement of Ms. McCarthy follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thank you.
    We are about to start questioning. But, before we do, 
Senator Specter left the Judiciary Committee's very urgent 
hearing, so, if there is no objection, I would like to ask him 
if he would like to have 5 minutes for an opening statement. 
And we are very glad to see you, Senator.

           OPENING STATEMENT OF HON. ARLEN SPECTER, 
          U.S. SENATOR FROM THE STATE OF PENNSYLVANIA

    Senator Specter. Thank you very much, Madam Chairwoman.
    I am at the Judiciary Committee Supreme Court nomination, 
but I wanted to stop by, first of all, to thank you for 
convening the hearing, and to thank the witnesses, Secretary 
LaHood and Ms. McCarthy.
    The legislation to provide transportation which would 
reduce greenhouse gases is enormously important, and there is 
no better time to focus on a matter of this importance than on 
this legislation.
    There are many ways that this can be done and many benefits 
which we all know about: dependence on foreign oil undercut, 
noxious fumes, we are trying to deal with the environment, the 
political implications of how Chavez and Iranian authorities 
are so powerful because of all the money they derive from oil. 
So, it is a win-win-win-win situation.
    I want to thank my colleague, Senator Carper, for his 
leadership on this important issue.
    I want to give special thanks to Secretary LaHood for 
setting a date to come to Pennsylvania to take a look at some 
of our projects.
    We have a rail line which has been in the making for a long 
time leading from Center City, Philadelphia to Reading. It goes 
alongside an expressway known as the Schuylkill Expressway. I 
know we will have Senator Barrasso's backing on this because 
Senator Barrasso is from Reading, and I know he has had a great 
deal of time spent on the Schuylkill Expressway and that is why 
he moved to Wyoming.
    [Laughter.]
    Senator Specter. The roads are less cluttered there.
    But it is a virtual parking lot for much of the day.
    Then we are going to go into the Lehigh Valley where there 
are some important projects. And we are going to go into 
Scranton, where we will try to get a rail line to service New 
Jersey. Senator Lautenberg and I, and Senator Schumer, would 
like to extend it up to Binghamton to create a Wall Street West 
in the Pocono area, which is a beautiful area and really in 
need to diversify Wall Street for its important function and 
what we know can happen in the big city situs.
    So, those are all in furtherance of this proposal. We had a 
great bike area along the Schuylkill, and this is really a 
very, very important item.
    I thank you, Madam Chairwoman, for what you are doing to 
promote these important issues. As much as I would like to stay 
here, Judge Sotomayor requires some attention, too.
    Thank you.
    Senator Boxer. Senator Specter, we thank you so much. We 
know how much transportation means to you and to your State. 
Your Governor Rendell has been here many times talking about 
the need to turn to transit as we battle global warming. We 
appreciate your being here today. Thank you.
    We are going to start the questions. Let me say, some of my 
Republican friends, and they are my friends even though we get 
kind of heated, we are friends. Here is the thing. They said 
that the Waxman-Markey bill was, and I am quoting them 
verbatim, ``designed to make fossil fuel more expensive.''
    Now, that is not the purpose of the Waxman-Markey bill. The 
purpose of the Waxman-Markey bill is to get us off foreign oil 
so that we are energy independent, to create millions of jobs 
as we move toward other technologies, and to protect our 
children from harmful pollution. Those are the three goals.
    When pressed this morning, it is true that the EPA 
modeling, and there is some argument about the modeling and we 
will model it every way to Sunday, shows that, indeed, there 
might well be a 2 cent per gallon increase per year as a result 
of the Waxman-Markey bill.
    I would say to my friends, rhetorically, where were you 
when the price of gas per gallon was going up $2 in 1 year in 
my State? No global warming legislation here, nothing to do 
with it here. But yet, the price of gasoline to fill a car went 
up to almost $5 a gallon. Why? Because we are too dependent on 
people who do not like us, and we need to move away from this 
dependence. There is $700 billion a year leaving from the 
pockets of our citizens to go to countries that do not like us.
    So, let us not say that the purpose of the Waxman-Markey 
bill was to make fossil fuel more expensive. That is ridiculous 
on its face. And the least you can do is allow the proponents 
of the bill to tell them why they designed the bill the way 
they do, and not say why they designed the bill. That is No. 1.
    No. 2. We had a similar debate this morning and the 
predictions of gloom and doom, gloom and doom, the likes of 
which you hear from my dear friend the Ranking Member, my 
friend from Ohio, my friend from Wyoming, my friend from 
Tennessee, exactly the same kind of predictions that were made 
in the 1990 Clean Air Act Amendment fight when we set up the 
first cap-and-trade system to deal with acid rain.
    For example, the Edison Electric Institute said that the 
Clean Air Act updates will cost consumers $120 billion in 
higher electricity rates. In fact, the reality is that the 
opposite happened: consumer electricity rates declined by an 
average of 19 percent.
    Then you had the U.S. Chamber of Commerce say that the 1990 
Clean Air Act amendments would cost America's businesses $50 
billion a year. Actually what happened is the benefits exceeded 
the costs 40 to 1. Forty to one, according to the OMB.
    And last, the same naysayers, except different people said 
it, but the same naysayers said the Clean Air Act amendments 
may cost Americans 4 million jobs. In reality, we created 20 
million jobs. From 1993 to 2000, the economy grew by 64 
percent.
    There is something good about being a little bit older, and 
that is that I have seen all of this come and go. From the days 
I was a County Supervisor, people were trying to pit cutting 
pollution against a strong economy. It is the opposite. If you 
cannot breathe, you cannot work. That is clear. So, let us 
start from there.
    This debate is going to get heated, you know, but it is 
about global warming, and it is going to be hot. I know that. 
But what I want to say is, under the Waxman bill, which we are 
starting off with as our marker before we introduce a new bill, 
we are going to see solar energy, wind energy, natural gas, 
geothermal, cellulosic, and nuclear energy all become 
competitive with fossil fuels. That is what we are going to 
see.
    And we are going to see more nuclear plants built under 
Waxman-Markey than Senator Alexander proposed. I am not the 
biggest proponent of nuclear energy. I worry about the waste. 
But the fact is that, when you put a price on carbon, all of 
these other energy sources become more competitive. We do not 
pick a winner or a loser.
    So, I have just one question, I would like to ask more, for 
the two you. I love this idea of your getting together to talk 
about sustainable communities. Because at the end of the day, 
so many people say to me, you know, I do not want to use my 
car, but I do not have any options. I want a better, safer way 
to get on a bike path. I want a better way to have the industry 
closer to where I live. So, I wonder if each of you could 
discuss this, because it is exciting and I have not heard that 
much about it.
    What have you discussed, if you can tell us, as some of the 
landmarks that you hope to reach in this new idea of the 
sustainable communities?
    Mr. LaHood. Well, let me begin, Madam Chair, by saying that 
when I was in West Los Angeles with Congresswoman Roybal-
Allard, we toured West Los Angeles, and we toured it on a light 
rail system that went through several neighborhoods.
    It went through an Asian neighborhood, a Hispanic 
neighborhood, an African-American neighborhood and tied them 
all together. These neighborhoods were run down with run down 
housing. They all now have very nice housing stock, some 
apartments and some town homes.
    This would have never happened, tying all of these 
neighborhoods together, from downtown L.A. out to west L.A., 
giving people an opportunity that cannot afford a car to ride 
on a light rail system so that they can go to work, go to the 
grocery store, and go to the drugstore. And at these metro 
stops where the light rails stop, there were grocery stores, 
there were restaurants, and all along the way there were 
different housing stocks.
    Now, this contributes to cleaning up CO<INF>2</INF> in the 
air because you do not have people in automobiles. You have 
people on very clean burning forms of transportation. This is 
the vision that we have for communities that want to do this. 
This is a vision that we have for communities that want to use 
some of the HUD money and also use some opportunities from the 
EPA and some transportation dollars to have neighborhoods 
available to people that cannot afford automobiles, that may 
want to get onto a bike path or a light rail system, or transit 
buses that burn natural gas or diesel that are clean burning.
    I saw it in west L.A. I saw it in Houston. When people get 
on a light rail system in downtown Houston, go out to M.D. 
Anderson, the Children's Hospital, the Women's Hospital where 
their doctors are, and all along the way, different housing 
stocks. Those are the kinds of neighborhoods that people in 
America want to live in today, particularly in areas where they 
can little afford two or three automobiles.
    In neighborhoods in cities where the city leaders want to 
do those kinds of things, we are going to be there to be 
helpful with our dollars and innovative approaches to doing it.
    Senator Boxer. Administrator, do you want to add anything 
to that?
    Ms. McCarthy. Madam Chairman, I would just say that as an 
old environmental commissioner, I feel like I died and went to 
heaven listening to a Secretary of Transportation talking like 
this.
    I would say that I know that the Administrator is excited 
about entering into this partnership. We understand the need 
not just to reduce vehicle miles traveled but to try to reduce 
single individuals driving in cars.
    We know that it is extremely important to look at 
investments in public transportation. It is opportunities, not 
just for greenhouse gas reductions, but for reductions of 
criteria pollutants that really cause deaths, lung disease, 
heart problems, and asthma in our children. These are the kinds 
of things that we want to avoid.
    And a good transportation strategy that considers these 
environmental issues and considers them during the planning 
process is a unique opportunity, and it is an opportunity not 
just for more livable communities, but ones that are healthier 
as well.
    Senator Boxer. Well, thank you both.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Well, you know, we can go into this and re-debate 
everything, but it does not really serve any useful purpose, I 
guess.
    On the costs of cap-and-trade, we know what it is going to 
be. We can kid ourselves, we can use false criteria and come up 
with analysis, but we know that for the last 11 years, since 
the first analysis came out by the Wharton School of Economics, 
and after that MIT and CRA, the range is going to be, and has 
been, and no one even argued it, actually, certainly Senator 
Lieberman agreed with this during the debate on the Warner-
Lieberman bill, and that is that it is going to cost hundreds 
of billions of dollars. It is going to be the largest tax 
increase in history.
    We can act like it is not, but I have a feeling that it is 
not going to pass anyway, so it does not make that much 
difference. The vast majority of the people know how expensive 
it would be.
    I always felt, and this is probably a good place to say it, 
if you really believe that CO<INF>2</INF> is causing global 
warming, why not just tax CO<INF>2</INF>? I mean, that is the 
honest way. But there is a reason that we do not do that. And 
that reason is that you cannot masquerade it. I mean, everyone 
knows that it is a tax.
    In this rare case I agree with James Hansen, who is the 
father of global warming, and he said just 2 days ago that the 
fact is that the climate course set by Waxman-Markey is a 
disaster course. Their bill is an astonishingly inefficient way 
to get a tiny reduction of emissions. It is less than worthless 
because it would delay, by at least a decade, starting on a 
path that is fundamentally sound from the standpoints of both 
economics and climate preservation.
    But anyway, that is not what we are supposed to be talking 
about in this thing.
    Ms. McCarthy, let me ask you this question, because I think 
it makes some sense to ask it at this point. The 2007 Energy 
Bill contained a requirement for the EPA to measure the 
indirect greenhouse gas effects caused by the massive mandates 
of the Renewable Fuel Standard. If a farmer plants an 
additional acre of corn in Iowa, EPA must measure the effects 
that action has on land use changes and greenhouse gas 
emissions in places like Brazil and Malaysia. EPA must somehow 
measure the immeasurable.
    Now, Senator Bingaman wrote an op-ed piece, I think it was 
yesterday or the day before, and in that, and I am quoting, he 
says many scientists have argued that there is insufficient 
modeling capability to accurately assign a numeric value to 
international indirect land use change at this time. With the 
science still evolving, it seems that the legislative 
requirement to assess indirect effects might have gotten ahead 
of our ability to understand those indirect effects.
    Do you agree with Senator Bingaman?
    Ms. McCarthy. Senator, as you know, the Administrator has, 
in May, put out a proposal to actually implement the Renewable 
Fuel Standard. One of the requirements by the Energy 
Independence and Security Act was for us to take a look at the 
greenhouse gas impacts associated with different types of 
renewable fuels. That does mean, and it specifically says, that 
we have to look at the significant greenhouse gas emissions 
that would be generated, including those that come from 
indirect land use.
    And that is a challenge. There is no question about it. We 
believe that the agency did a good job in looking at how you 
would measure those challenges. We use the best science 
available. We think that it is sufficient and will meet the 
test of time. We are, right now, accepting comment on that 
proposal.
    In addition, we have also started a peer review process, 
which is an independent assessment using OMB and EPA's process 
for peer review to take a look at the underlying premises that 
we used and the tools that we used to make those judgments on 
how to measure indirect land use impacts. And we will have that 
report ready quite shortly, within the comment period, so that 
we can consider that, as well as all the comments, in making 
the final decision.
    Senator Inhofe. It is a tough problem though. We understand 
that.
    Secretary LaHood, you and President have been very adamant 
that we should not increase Federal gas taxes. Frankly, I agree 
with you. During this turndown, by design a cap-and-trade 
scheme will increase the cost of energy, including gasoline. 
The Union of Concerned Scientists estimates that it will 
translate to 20 cents per gallon, which is about double our 
current tax. Others have looked at it, like the EIA and I think 
CRA and said it is going to be more than that.
    Now, either way, do you see a contradiction here in that 
while you and I both agree we should not be increasing gas tax, 
his would have the effect of increasing the cost of that energy 
by an amount about equal to what our gas tax is today?
    Mr. LaHood. Well, Senator, I will say what I have said on a 
couple of different occasions at this committee and also at 
other committees, both in the House and Senate. With these hard 
economic times, President Obama and his Administration does not 
believe that raising the gasoline tax is good for Americans who 
are out of work and can least afford to have gasoline raised.
    We will stand by that. We are going to work with Congress 
on other alternatives to help with the Trust Fund, which is 
obviously inadequate, we know that it is, and we have suggested 
some other funding ideas. But we are not for raising the gas 
tax.
    Senator Inhofe. Yes, but if you are not for raising the gas 
tax, which I agree with you, and you stated that it would 
impose a cost on people during an economic downturn, would not 
this same increase cost per gallon of gas due to the increase 
costs of energy under cap-and-trade, if that were the case, 
impose the same hardship on these people?
    Mr. LaHood. Well, Senator, I have not really looked at that 
the way that you have. I have not analyzed it the way that you 
have. But I, you know, as the Senate moves ahead with its bill, 
I am certain that the Administration will have to weigh in on 
these matters.
    Senator Inhofe. All right. Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Carper.
    Senator Carper. Thank you.
    Just a quick comment, if I can, for those of us who 
question whether or not we need to do anything about global 
warming. I come from a State where, well, the highest point of 
land in Delaware is a bridge. If we do not do anything, we will 
continue to see the kind of ice melts up in the North Pole and 
other places where we have glaciers. Parts of my State are 
going to be underwater. Not just my State, but States along the 
East Coast from Maine to Florida. Large parts of Florida could 
well be underwater by this time in the next century. I just 
think we have to do something about it while we have time.
    For those who would seek to demonize cap-and-trade, the 
first time I ever hard cap-and-trade was I think 1990. Our 
President was a guy named George Herbert Walker Bush, and as I 
recall, he proposed harnessing market forces to try to address 
the problems that we had with acid rain destroying forests and 
water and lakes and so forth in New England. He said, why do we 
not create a market-based system, called a cap-and-trade, and 
see if that might work.
    And it worked. It worked. People were saying at the time, 
we ought to put a tax, if you will, on socks, and they 
estimated what that might be. By putting in place a market-
based system, we actually ended up, the costs of removing a ton 
of sulfur dioxide was I think less than half of what most 
experts had thought.
    As for those who want to demonize cap-and-trade, their 
numbered States are part of the energy program already, 
including Delaware. We have in place a cap-and-trade system. I 
do not think anybody in my State has noticed that with respect 
to their energy costs. So I just would put that out there for 
the record.
    Questions. The Waxman-Markey bill that passed the House 
allows 1 percent of allowances to be used for some individual 
transportation projects that could reduce greenhouse gas 
emissions. However, it does not fund a comprehensive strategy 
to reduce emissions across various modes of transportation.
    Is the 1 percent in Waxman-Markey sufficient investment to 
reduce emissions for the transportation sector commensurate 
with the overall cap? Would you like to respond to that? I 
think it is probably for both of you. Thanks.
    Ms. McCarthy. Senator, I think you raise an excellent point 
concerning the need for investments in sound transportation 
planning that really considers environmental consequences like 
greenhouse gases, as well as the need for investments in public 
transportation. I agree with you that Congress really needs to 
look at the allocation issue and consider the needs of States 
who are struggling in these areas. But certainly it is up to 
Congress to determine the allocation process and we will be 
there to help in any way that we can to provide technical 
assistance.
    Senator Carper. All right. Thanks.
    Secretary LaHood.
    Mr. LaHood. Well, Senator, we testified before Congressman 
Waxman's committee, and I testified with Secretary Chu and EPA 
Administrator Jackson, and we will consult with the Senate as 
they move ahead on your bill. We will be happy to consult with 
you on this. As soon as we know what direction you want to 
take, we will be there with whatever technical assistance we 
can provide to you.
    Senator Carper. All right. Thanks so much.
    Second question. Unfortunately, some people say that 
transportation efficiency improvements and smarter development 
can only apply to urban areas. They say that residents of 
suburban and rural areas do not want to reduce the amount that 
they drive. Let me just ask: do you all agree with those views, 
and how can transportation efficiencies and smarter development 
bring increased mobility to rural areas and to suburban areas 
and cut greenhouse gas emission as the same time?
    Mr. LaHood. Well, we have a program at the department, 
Senator, which allows for funding of, in some instances, 
transit districts to purchase vehicles in order to go out to 
rural areas to deliver people into communities where they want 
to go to a doctor's appointment or a grocery store. It allows 
them to stay in the rural communities where they raise their 
children and they want to live out their lives. For whatever 
reasons, they cannot get into the so-called urbanized areas.
    We think that program has worked well, and we think it has 
delivered people to areas where they have wanted to go. We are 
going to continue to pursue that kind of program and 
opportunity for rural America. In some instances, it will be in 
cooperation with transit districts, in others it will be with 
community organizations that provide these kinds of 
transportation services. Rural America will not be left out in 
their transportation needs. They will not.
    Ms. McCarthy. Senator, let me just add that----
    Senator Carper. Could you be just very brief in your 
response please?
    Ms. McCarthy. I'm sorry?
    Senator Carper. Would you just be very brief in your 
response, please? We are out of time. Thank you.
    Ms. McCarthy. Yes, I will.
    Senator, I am excited about the opportunities for smart 
transportation to actually continue to preserve and restore New 
England villages. I think they are under threat. I think we 
have seen that. And I want my children, and their children, to 
be able to walk to school, to be able to bike along the 
streets, and to be able to feel that sense of community that we 
all felt when we were growing up.
    Senator Carper. All right. Thanks so much.
    Senator Boxer. Thank you, Senator Carper.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Mr. Secretary, on February 19 in the National Journal there 
was an article entitled LaHood Predicts More High Speed Rail 
Funds. The article delved into the role that the Transportation 
Department is going to play in climate change.
    The article said that ``Addressing the role that the 
Department will play as Congress and the Administration move 
forward on climate change legislation this year, LaHood said he 
would take his cues from Obama and White House Energy and 
Climate Advisor Carol Browner.'' You were quoted as saying ``I 
am going to take my leads from Carol Browner. I will be a good 
faithful soldier on this.''
    And then on April 13th an article appeared in 
SustainableBusiness.Com entitled Carol Browner's White House 
Role. The article stated that you had been to six meetings 
chaired by Carol Browner already and that you gave her very 
high marks. That was back in April. That was 3 months ago.
    I am curious as to what you meant when you said you were 
going to take your leads from Carol Browner? I mean, you are a 
Senate-confirmed Cabinet Secretary in charge of climate change 
policy for the Department of Transportation. I want to know 
what that meant, and at any point has Carol Browner made policy 
decisions for the Department of Transportation with regard to 
climate change?
    Mr. LaHood. Well, Senator, when you get sworn into a job 
like I have, you are a part of a team. I am a part of President 
Obama's team. And I am very proud of that. I think it is a 
great opportunity for me to continue my 30 years of public 
service and, when I assumed this job, I assumed it with the 
idea that I am a part of the President's team. And the 
President has assigned certain responsibilities to certain 
people on his team to lead certain of these opportunities.
    Carol Browner was asked, by the President, to coordinate 
opportunities for moving ahead with the President's initiative 
on climate change. And so what she did, she convened meetings 
on any number of occasions of Cabinet members and other 
officials that work for the President to try and coordinate and 
collaborate so that there could be an opportunity for the 
President to move his initiative for climate change. And I 
participated in those meetings.
    Senator Barrasso. You mentioned six meetings before April 
13th. So there are ongoing meetings since that time?
    Mr. LaHood. Senator, we meet once a month.
    Senator Barrasso. Are there other Cabinet members there?
    Mr. LaHood. Yes, sir.
    Senator Barrasso. So, could you just describe then what you 
see as Ms. Browner's role? You know, there have been 
significant discussions in the Senate, as well as in the press, 
about the role of all of these czars that the President has 
appointed who are not confirmed by the Senate and who do not 
come in front of the Senate.
    Mr. LaHood. Well, I mean, Senator, I would tell you this. I 
believe that Ms. Browner has been asked by the President to 
help put forth his initiatives for climate change. She has done 
it very well. She has done it in a very collaborative way. She 
has asked for advice from every Cabinet member that has 
attended those meetings, and they have been well attended. It 
is no different, Senator, than a Senator or a House member 
having staff people and you assign them certain 
responsibilities to carry out your initiatives. That is what 
Ms. Browner is doing.
    Senator Barrasso. So then at these monthly meetings, there 
are a number of Cabinet members----
    Mr. LaHood. Yes, sir.
    Senator Barrasso. In terms of Secretary of Transportation, 
Energy, Interior----
    Mr. LaHood. Yes, sir.
    Senator Barrasso. OK. Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Senator Voinovich.
    Senator Voinovich. Mr. LaHood, I thank you for your 
testimony and again for being here.
    In a hearing we held earlier this year in response to my 
question about increasing the gas tax, you said, this is just a 
repetition of what you just said, but I will do it again, this 
Administration in these hard economic times with so many people 
out of work can ill afford to tell people that we are going to 
raise the gasoline tax. Well, you would not have to raise the 
gasoline tax. We would have to do that.
    However, this is essentially what, and this follows up on 
Senator Inhofe, what a cap-and-trade program aims to do. And 
you testified in favor of this policy before the Energy and 
Commerce Committee. So, on the one hand, you say oh no, no gas 
tax or user fee, and on the other, you say it is OK to raise 
the energy costs of the American people.
    In testimony about the cost of cap-and-trade at a House 
hearing last September, Director Orszag stated much of those 
costs will be passed along to consumers in the form of higher 
prices for energy and energy-intensive goods.
    How do you rectify these two opposing viewpoints from the 
Administration? Do you agree with your earlier statement about 
how people cannot afford to pay a higher user fee or gas tax or 
with your new position that raising consumer energy prices 
through cap-and-trade is OK?
    Now let me just say this to you. One of them, and it is 
really interesting, you are talking about more rail and more 
transit and all of these others things. The question you have 
got to ask yourself is how are you going to pay for them?
    There is a group out there right now that is talking about 
a new stimulus bill. How are we going to pay for it? By 
borrowing more money?
    I contend that increasing the gas tax and higher use tax, 
whatever you call it, is going to result in thousands of jobs, 
a real stimulus bill that we would pay for and not borrow the 
money, and it will help reduce greenhouse gases. We have got 
testimony coming up about that. It would provide the 
infrastructure that would enhance our competitive position in 
the global market. It will make rail and transit more available 
because we will have a lot more money to put into it and, if 
you look at Jim Oberstar's bill, he has got a lot of money in 
there for rail and transit.
    And last, but not least, it is going to make our highways 
and our transit a lot more safe. For example, we are going to 
let the Metro system use some of their money so they can do the 
maintenance that is necessary. Back in Illinois, the transit 
system there has $6 billion worth of deferred maintenance that 
needs to be made.
    So, are we in the real world or are we not? I mean, where 
is the money going to come from? If you are opposed to this, 
and you say, well, how are you going to do it? How are you 
going to do it? And how do you reconcile that you are for 
higher energy costs for people, which we hope will reduce 
greenhouse emissions, and not in favor of raising the money 
that we need to do lots of the things that you have been 
talking about?
    Mr. LaHood. Well, the way we are doing it right now, 
Senator, is with the money that the Congress gave us in the 
Economic Recovery Plan which was $48 billion. We already have 
$4 billion out the door for transit. Many of the transit 
districts will use that money to buy buses, to build buildings. 
One billion is out the door to repave runways all over America. 
So $1 billion, that is what the Congress has provided, and we 
have spent it. It is out the door. People are working repaving 
runways.
    And we were also provided $28 billion for roads and 
bridges----
    Senator Voinovich. But that is going to end, just like the 
$24 billion that we put in for highways in that bill, and it 
should have been something like $57 billion. It is going to be 
gone. It is going to be gone. What are you going to do after it 
is gone?
    Mr. LaHood. Well, Senator, some of it is being spent now, 
but the lion's share of it will be spent over the next 18 
months. And we are going to work with Congress over the 18 
months on an authorization bill that will be very robust, will 
have the money to pay for it, and we are committed to doing 
that.
    Senator Voinovich. Well, we will have the money to pay for 
it. You still have not told me how you are going to pay for it, 
Mr. LaHood.
    Mr. LaHood. You know, Senator, I have been here before and 
I have talked about a number of different things, in addition 
to the Highway Trust Fund, including infrastructure bank, 
including tolling. I just met with the Governors of Washington 
and Oregon out in Seattle. And at that meeting we talked about 
the Columbia River Crossing Bridge. That bridge will be paid 
for by tolling.
    You can build bridges and roads by tolling. That is one 
alternative that I hope the Senate will look at. You can also 
create an infrastructure bank, which can create a lot of money 
to help pay for the infrastructure that I know that all of you 
want to do.
    So, there are a lot of good ideas floating around, Senator, 
including the use of the Highway Trust Fund. But we need to 
build on that, thinking outside of the box.
    Senator Voinovich. I think it will take that and a lot 
more.
    Senator Boxer. OK. We are going to move on to the next 
panel.
    I just want to say, before Secretary LaHood, you leave, and 
the Assistant Administrator, we are going to have this debate 
on Thursday because I am going to propose, I am sorry, 
tomorrow, I am going to propose an 18-month clean extension. 
Just before you leave, I wanted to make two points.
    First of all, because I know Senator Inhofe is right, this 
is not the place and time to debate Waxman-Markey, but 
unfortunately that is what some of my colleagues started to 
attack. The record has to show there is not any tax increase in 
Waxman-Markey. There is a tax credit to defray any increase in 
costs, and the modeling shows a 2 cent per gallon increase in 
gasoline over each year.
    I wanted to also point out that under the Oberstar bill 
over in the House, it would take a doubling of the gas tax, 
which I do not support. I identify with the President on that 
point.
    I am willing to look at an indexing to inflation of the gas 
tax, which I have publicly said, but I think we do have to look 
at these many other ways to pay-go.
    So, here is where we are. We have now spent a very long 
time with you and we have several others. But my question to 
you is, and I understand, Senator Alexander, do you have 
questions for this panel?
    Senator Alexander. I would like to.
    Senator Boxer. OK, then we will do that. I ask the patience 
of this next panel.
    But before I do, would you answer the question on why it is 
that you support an 18-month extension, not a 12-month 
extension?
    Mr. LaHood. Well, first of all, we believe that over the 
next 18 months we can work with Congress on a bill, and that 
times out the use of the stimulus money. And the timing is 
pretty good on that. We believe over the next 18 months, which 
is the timeframe Congress gave us when they passed the bill for 
highways and airports and transit and high speed rail and our 
discretionary money, and during that 18-month period, while we 
are using that money, we will work with Congress on a bill, and 
the timing will be pretty good, almost match up with when we 
are finished with our stimulus. That is the reason.
    We also believe, and our willing to work with you, Madam 
Chairman, on the idea that it will take $20 billion. We are 
working with the OMB to find the money and pay for it. So, we 
appreciate your leadership in holding a mark up tomorrow on 
this important extension.
    We do not want to see Congress leave town around the first 
of August and have our Trust Fund run out of money in mid-
August. That would be completely unfair to the States, 
particularly as the Economic Stimulus Program is really taking 
off. It is really jettisoning.
    Senator Boxer. Well, Mr. Secretary, if I could just say, I 
so appreciate your leadership on this. You make common sense. 
Trust Fund is running out of money, we want to take care of it, 
and we want to do it in a way that we send a strong signal that 
there will be no disruption. The stimulus money piggy-backing 
on what we already are going to do to keep things at an even 
keel will give us a bit of an increase here and get us through 
and give us the time.
    I want to just pledge to my committee again, which I said 
before, we intend to work with all colleagues on both sides of 
the aisle and with the Administration on reforms and make the 
necessary changes and look at this wide array of funding that 
we need to seriously look at because, at the end of the day, 
the Gas Tax Fund is just not going to be there for us.
    It is a bad news-good news story. The bad news is that it 
is not going to be there for us. The good news is that people 
are moving to more fuel efficient vehicles, we are going to 
have more sustainable communities, and the cars are going to be 
electric and hybrid and all the rest.
    So, we really have an issue on our hands that we cannot 
resolve under the threat of the Trust Fund going broke. So, I 
just want to thank you.
    I just want to note the importance of these particular 
witnesses who come to us, you know, as Republicans, in a spirit 
of bipartisanship, and how important I think it is to note 
that.
    Senator Alexander, you have the final word for 5 minutes, 
and then we are going to move on. All right?
    Senator Alexander. It is a rare opportunity, Madam 
Chairman.
    Senator Boxer. Which I know you will take.
    Senator Alexander. I thank you for your courtesy.
    Ms. McCarthy, I would like to explore, and this is a 
question I asked you at an earlier testimony, a little about 
the idea of a low-carbon fuel standard as a way to deal with 
carbon in fuel. I mean, we have established that fuel is about 
one-third of the greenhouse gases or of carbon. The question 
is, if we think that reducing that carbon is a good idea, what 
is the most sensible way to do it?
    A low-carbon fuel standard would be a simple standard that 
would, say, over time you would gradually reduce the amount of 
carbon in your fuel, that is the way I understand it, and that 
people who sold fuel would know that in advance and begin to 
look for alternatives in whatever way the market permitted.
    If we had an effective low-carbon fuel standard, why would 
we need to apply an economy-wide cap-and-trade, such as that in 
the Waxman-Markey bill, to fuel?
    Ms. McCarthy. Well, Senator, you challenged me to come here 
a little bit more informed, and hopefully you will find that I 
am on this issue.
    Senator Alexander. I did not say it that way.
    Ms. McCarthy. Well, I pledged to you that I would come here 
more informed.
    You challenge the thinking concerning whether or not 
transportation should remain part of, and within, the cap-and-
trade system, and clearly we did model those issues. There is 
some price signal that keeping transportation sends in, that 
sends to the market in terms of reducing greenhouse gases. It 
is a modest signal that will not really transform the 
transportation sector that we all would be looking forward to.
    So, there is the need for these other complimentary 
measures. Many of them are in the bill----
    Senator Alexander. But my question is, if you have an 
effective low-carbon fuel standard, why do you even need an 
economy-wide cap-and-trade on fuel?
    Ms. McCarthy. What I was going to say, Senator, is that I 
do know that a low-carbon fuel standard is a performance-based 
technology-neutral market-based tool. We have not modeled the 
effectiveness of a low-carbon fuel standard. I am happy, if you 
are interested in looking at that, to provide you opportunities 
to look at the market associated with that and what impact that 
may have.
    Senator Alexander. I would appreciate that. May I ask you 
also, I mean, Dr. David Greene from Oakridge, who testified 
here, said that a carbon price, he evaluated the Climate Change 
Act of 2007. He said a carbon price of $30 to $50 per ton 
transcends to roughly 25 to 50 cents per gallon of gasoline. 
That is a pretty big gasoline tax increase.
    He basically said that would not make much difference. Even 
at that rate, and I am paraphrasing a little bit, his testimony 
is for the record, that while it would be constructive, he 
said, it would be very inefficient, not make much difference. 
In plain English, it would not change behavior enough to cause 
people to drive less and reduce carbon.
    In the rest of his testimony, which is generally in favor 
of higher CAFE standards, which he greatly supports, he 
suggests, especially in the early years, that a low-carbon fuel 
standard is more effective.
    So, my question would be, and it is fine with me if you 
want to respond at a later time, is what difference would it 
make, a low-carbon fuel standard, as compared with an economy-
wide cap-and-trade, and as long as the so-called economy-wide 
cap-and-trade does affect the whole economy anyway, I mean, it 
is about 83 percent, and so we could take fuel out of it and 
that would take it down to 53 percent and say, why should we 
not just put a low-carbon fuel standard on fuel?
    I have a second question. Maybe you know the answer now, 
maybe you would rather think about it and get back to me. It 
seems to me that since, in 1990-91, Senator Boxer went over 
this this morning, when the Government put on the cap-and-trade 
for acid rain, we had a clear way to deal with it. It had 
scrubbers. So, you could say to the coal plants, so here is the 
mandate but you have got an alternative over here, scrubbers.
    The problem right now with coal is that we have not built a 
nuclear power plant in 30 years, and we do not have a 
commercially viable way to deal with carbon capture. That is 
not the case with transportation. We have electric cars about 
to be made by everybody. We have Brookings saying we can plug 
them in at night and not even need to build one new power 
plant. We have some biofuels.
    So my question is, if EPA were to regulate fuel, carbon 
coming from fuel, would the current law permit you to calibrate 
that and align that with costs so that you did it such a way 
that it did not increase the costs of fuel to the American 
consumer? Or, do you need for us to pass a law giving you the 
authority to do that or requiring you to do it?
    Ms. McCarthy. Just very briefly----
    Senator Boxer. Go ahead. He has gone over his time, but why 
do you not give the Senator an answer to his question.
    Ms. McCarthy. Let me answer your last question. We do have 
general authorities to set standards for transportation fuels. 
But we do believe, again, that it should be a part of a 
comprehensive strategy, and we do think that there are elements 
in the Waxman-Markey bill, like tougher standards on heavy duty 
motor vehicles and non-road engines, investments in clean 
vehicles and energy infrastructure, that are critically 
important and that should go along with a comprehensive 
strategy.
    Senator Alexander. Thank you.
    Senator Boxer. Thank you so much, Senator Alexander. And to 
our panel, we appreciate your candor. I hope we have some good 
news for you tomorrow, Mr. Secretary, and that we can get this 
going. Thank you.
    Now, I would ask, as our panelists leave from the first 
panel, for Ralph Becker, Mayor of Salt Lake City, Utah; David 
Bragdon, President, Portland Metro Council; Steve Winkelman, 
Director of Adaptation and Transportation Programs, Center for 
Clean Air Policy; and Ray Kuntz, Chief Executive Officer, 
Watkins and Shepard Trucking.
    To those who are leaving, if they could do so quietly, 
because of time. We need to start.
    So, Mayor Becker, we are very pleased and honored that you 
are here. We appreciate all of our panelists waiting for so 
long a time. We really want to hear from you. So why do you not 
proceed.

  STATEMENT OF HON. RALPH BECKER, MAYOR, SALT LAKE CITY, UTAH

    Mr. Becker. Thank you very much, Chairman Boxer.
    Thank you, Chairman Boxer, and members of the committee. I 
appreciate very much the opportunity to appear before you today 
to discuss this most important topic to my city and, I know, to 
so many communities across the country.
    Just by way of background, by training I am an 
environmental lawyer and planner. I have worked in government 
in the private sector for over 30 years in this general arena. 
Currently, I have the great privilege--and joy, really--of 
serving as the Mayor of the wonderful city of Salt Lake.
    We have been focused, as many, many cities have across the 
country, on transportation and climate change and what we can 
do to contribute to solutions to the growing global warming 
crisis that we face.
    Salt Lake City is unique and really gives us, I think, a 
chance to have a unique view of the effects of climate change. 
We are a valley, a beautiful valley that is surrounded by peaks 
that rise over 7,000 feet above our valley floor. We see the 
changes as they relate to climate change today, I think, to the 
surprise of me and many people, and we find ourselves preparing 
to adapt as best we can long term to the effects of climate 
change.
    The climate change issue for us is one that requires a 
comprehensive approach, one that is accomplished at all levels 
of government, and one that looks at all sectors of the economy 
in our society.
    The American Clean Energy and Security Act as passed by the 
House, which certainly I commend and I know many others do, 
recognizing the challenges you face, really misses a key 
component from our perspective in the transportation sector.
    I want to talk just briefly a bit in terms of some things 
that we are doing in Salt Lake City. We have taken a multi-
modal approach. We are building, as near as I can tell, faster 
than about anywhere in this country, a rail system that 
includes two light rail lines in place, a commuter rail line 
that opened earlier this year, and we have 70 miles of rail 
under construction as we speak.
    We have also, since I have been in office, multiplied times 
10 the amount of money we are putting into bikeways. And we are 
looking comprehensively at land use and other efforts in a 
sustainability ordinance that, as near as I can tell again, is 
the first in this country as a comprehensive sustainability 
ordinance.
    We are also looking at the next step for us, which is a 
major investment in streetcars. We are looking at three 
streetcar lines, different lines that really, in a way, serve 
slightly different purposes in our city, and some of them, we 
hope--and we hope, of course, that the Federal Government can 
help us here--that we are really within a year of initiating.
    We also, as I mentioned, have done work with bikes and 
bikeways. We have a bike sharing program that is about to 
start. We have a car sharing program, a zip car-type program, 
which is really just getting underway as well.
    We have also looked beyond that in a community-based effort 
to look at what we can do beyond the governmental arena by 
bringing together the community of stakeholders, whether it is 
the Chamber of Commerce, the faith organizations, the different 
non-profit organizations, and asked them what can we do that 
will make a difference.
    What they have come up with as the No. 1 goal is to reduce 
vehicle miles traveled, and the No. 1 approach is through 
education. And we have just finished a Clear the Air Challenge 
where we have reduced, in 6 weeks, 1 million VMTs. And we are 
encouraged to keep moving further in that regard.
    As a leader in climate change policy, we really believe 
that it is important that all levels of government work 
together. There are examples around the world where 
transportation has been done wonderfully well. I was in Vienna 
in the last 2 months where one-third of the transportation is 
by transit, one-third by vehicles, and one-third by biking and 
walking. It is a wonderful city to get around in and a very 
livable community.
    We look forward to the Federal action that will help us 
achieve what we want to accomplish as a community for 
improvements and for future generations. We invite you to look 
at what the U.S. Conference of Mayors has been doing, and 
working with you to accomplish what we need to do.
    Thank you for allowing me to be here.
    [The prepared statement of Mr. Becker follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Senator Boxer. Thank you so much, Mr. Mayor.
    Now, David Bragdon, President of the Portland Metro 
Council. Welcome, sir.

STATEMENT OF DAVID BRAGDON, PRESIDENT, METRO COUNCIL, PORTLAND, 
                         OREGON REGION

    Mr. Bragdon. Thank you.
    Madam Chair and members of the committee, I am David 
Bragdon. I am President of the popularly elected Council in 
Portland, Oregon, the metropolitan planning organization.
    You might think, like most Americans might think, that 
there are no two cities more different than Salt Lake City and 
Portland, Oregon, and in fact you would be right in many 
respects. Demographics are different. Our history is different. 
I suspect our politics are different. So, it is very revealing 
that our approach on this issue is nearly identical. I am 
sitting here next to the Mayor of Salt Lake City and am ready 
to tell a similar story, despite the difference in our two 
communities.
    Our 1.4 million residents are, in many respects, just 
typical Americans. Like most Americans, most Oregonians get 
around by car. Yet, there is a lot of evidence that, unlike the 
rest of the country, our greenhouse gas emissions are stable or 
being reduced. So, if in many respects we are typical 
Americans, then how is it that in this one way, in this very 
important way, we are trending in a different direction than 
the rest of the country?
    Well, there are two key reasons. First, although most 
people do get around the Portland area by car, we are not 
forced to do so, because enough of us can take advantage of the 
other choices that have been provided: a very good transit 
system and the ability to bike and walk.
    The second difference is that, although we do drive, we 
simply drive a little bit less than people in other parts of 
the country, because of the way our community is laid out. We 
can take care of more of our needs close at hand, rather than 
having to drive, as people do in regions where jobs and housing 
are dispersed further apart.
    We have a regional strategy with three simple elements. 
First, an urban growth boundary prevents wasteful suburban 
sprawl. Rather than spending tax dollars extending new roads 
and other services further out, we encourage more efficient use 
of land and infrastructure.
    Second, we encourage more concentrated development around 
transit lines.
    Third, we have constructed more than 60 miles of light rail 
and operate an extensive bus network. And we have invested in 
lanes and trails to accommodate thousands of commuters who are 
on bikes.
    The results of this strategy are starting to show. We are 
growing more compact. The Portland area is consuming new land 
at a rate equal to or less than the rate of population growth. 
Our transit ridership and the uses of bicycles are growing far, 
far faster than the growth in population. And the Portland 
region's per capita private vehicle miles traveled has been 
trending downward and our average trip length is shrinking.
    We think our experience offers two lessons for our fellow 
Americans. First, our Nation cannot successfully address 
climate change without reforming our transportation system. And 
second, we cannot successfully reform our transportation system 
without also improving the way our communities are designed and 
reducing the need for people to drive. We cannot just focus on 
the supply side. We have to address demand as well.
    The Senate and this body can help in many different ways. 
Since Secretary of the Treasury Alexander Hamilton first 
proposed that the Nation build national canals, the Federal 
role in transportation has been hotly debated. Whether it was 
President Lincoln signing the Pacific Railroad Act of 1862 or 
President Eisenhower signing the Federal Aid Highway Act of 
1956, the Federal influence on transportation reaches into 
every community in this country.
    Even though zoning is a local matter, the mid-20th century 
policies of the Federal Government funding new road 
infrastructure shaped auto-oriented patterns throughout the 
country. This committee is uniquely situated to change those 
patterns. You are uniquely situated to address climate change 
through transportation reform. And you can use the climate 
change legislation to set goals which can be addressed in the 
upcoming transportation authorization.
    I praise Representative Oberstar and Representative DeFazio 
of the House for their approach and the draft transportation 
legislation, and I would urge you to embrace many of their 
concepts.
    Among the important ones that I would promote are linking 
the planning requirements of the climate change bill that you 
are talking about now to the planning requirements of the 
upcoming transportation bill.
    I would add that many of these things can be done 
administratively as well during this extension period that you 
are talking about tomorrow. They do not have to wait for the 
final bill. You can work on them in the meantime.
    In our region, we are already researching and working on 
ways to model greenhouse gas impacts, not only of 
transportation projects but of competing strategies, different 
approaches being as important as the projects themselves.
    Second, you can link the highway bill to the transit bill, 
the transit bill that will emerge from the Senate Banking, 
Housing and Urban Affairs Committee. Use the transit bill to 
create carbon offsets for the highway bill.
    Third, you can reduce administrative obstacles that prevent 
localities from using Surface Transportation Program funds for 
non-auto uses, and overhaul some of the federally mandated 
design standards which often force localities and taxpayers 
into the most expensively engineered solutions.
    And fourth, include an aggressive program to address 
metropolitan mobility in the upcoming transportation bill.
    The Americans in the Portland region will do our part for 
the country, but we need the Senate's leadership on these 
issues.
    Thank you for the opportunity to participate today.
    [The prepared statement of Mr. Bragdon follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
       
    Senator Boxer. Thank you so much.
    I just want to say to the other members of the panel that I 
have been called away for a very urgent meeting right now on 
the issue of global climate change. So I am going to be going 
to that meeting.
    I am going to be handing the gavel over to Senator Carper, 
and Senator Carper, once we finish, we will give you the list 
of the arrival and we will let you keep this going as long as 
you wish to and members wish to.
    I thank the panel, really, for your participation.
    Senator Carper. Thank you, Madam Chair. We will break for 
dinner around 6:30 p.m.
    [Laughter.]
    Senator Carper [presiding]. Please proceed. Thank you.

    STATEMENT OF STEVE WINKELMAN, DIRECTOR, ADAPTATION AND 
      TRANSPORTATION PROGRAMS, CENTER FOR CLEAN AIR POLICY

    Mr. Winkelman. Chairman Boxer, members of the committee, 
good afternoon.
    My name is Steve Winkelman. I am the Director of the 
Transportation Program at the Center for Clean Air Policy, also 
called CCAP, an environmental think tank with offices in 
Washington, DC, California, New York, Brussels and Paris.
    CCAP helps governments at all levels design and implement 
climate policies that balance economic and environmental 
concerns. We conduct technical analysis and facilitate dialog 
among government, industry, and environmental stakeholders to 
craft practical and effective solutions. Our international 
dialog engages climate negotiators from 30 countries in 
developing post-2012 solutions.
    CCAP's transportation and climate dialog brings together 
high level officials from State, local and Federal agencies, as 
well as experts from advocacy groups, car companies and oil 
companies.
    I encourage you today to consider travel efficiency in 
crafting climate legislation. Travel efficiency measures 
include smart growth, transit, walking, biking, telecommuting, 
system efficiency and freight improvements. They benefit 
cities, suburbs and rural towns, and are just as important for 
fast-growing and long-established communities. The key is to 
provide communities with the tools and incentives they need to 
determine and implement their own solutions.
    My top points today are: reducing vehicle miles traveled 
(or VMT) is critical for climate protection; travel efficiency 
can reduce VMT and save money while cutting CO<INF>2</INF>; 
there are many short-term savings opportunities; and CCAP and 
our dialog partners recommend that Congress dedicate a 
meaningful share of climate allowance value to fund travel 
efficiency.
    Transportation CO<INF>2</INF> emissions are nearly one-
third of the U.S. total and result from three factors that we 
call a three-legged stool: vehicle efficiency, fuel carbon, and 
how much people drive as measured in VMT. While the 2007 Energy 
Bill addressed the first two legs, it did not address the third 
leg of the stool, VMT.
    Between 1977 and 2007, driving grew three times faster than 
population growth. And the Department of Energy projects that 
per capita VMT will grow 15 percent through 2030. If driving 
grows anywhere near this pace, the increased emissions will 
overwhelm the reductions from low-carbon fuels in vehicles, 
even at 55 miles per gallon.
    Without reducing VMT, we will be off path to reaching 2050 
climate goals and will increase the burden on other sectors of 
the economy.
    While the price signal from cap-and-trade will reduce point 
source emissions, it will not slow VMT growth, as most 
Americans lack convenient alternatives to driving long 
distances. Yet, real estate studies and demographic trends 
indicate robust and growing market demand for compact, walkable 
communities. And empirical studies show that people drive one-
third fewer miles in places with rich transportation choices 
and spend less money on fuel. That is as good as driving a 
Toyota Prius and shows that ``sidewalks are as sexy as 
hybrids!''
    Since more than half of the 2030 built environment does not 
yet exist, we have an unprecedented opportunity to reshape the 
landscape. While cars last 10 to 15 years, transportation and 
land use decisions can last for centuries.
    In a recent study on the cost effectiveness of travel 
efficiency, CCAP estimated that best practices could reduce VMT 
per capita by 10 percent, a level already achieved in Portland. 
I would like to submit that report for the record.
    Senator Carper. Without objection.
    [The referenced report was not received at time of print.]
    Mr. Winkelman. A 10 percent decline in per capita VMT would 
cut annual emissions by 145 million metric tons CO<INF>2</INF> 
in 2030, the equivalent to 30 million cars and 5 percent of the 
2030 goal in the House climate bill.
    Travel efficiency measures can bring tremendous economic 
benefits. In the Sacramento region, smart growth planning is 
projected to save $9 billion in infrastructure costs, yielding 
a net cost savings of $200 per ton CO<INF>2</INF>. In Tampa, 
$60 million of public spending for a streetcar line helped 
attract $1 billion in private investment.
    While typically seen as long-term strategies, transit and 
pedestrian improvements can reduce CO<INF>2</INF> in the short-
term as well. And other strategies can also produce rapid 
results. An International Energy Agency study found that the 
United States could cut oil use 14 percent within 1 year at 
less than $3 per ton CO<INF>2</INF> through car pooling, 
telecommuting, compressed work week and eco-driving.
    CCAP and our dialog partners propose a transportation 
greenhouse gas reduction incentive program that calls for 
dedicating 10 percent of climate allowance value to travel 
efficiency, funding bottom-up goal setting and planning 
processes, competitive grants to reward early adopters and 
higher achievement, and funding to improve travel data and 
measure performance.
    Dedicating a meaningful share of cap-and-trade allowance 
value to travel efficiency would provide immediate and long-
term benefits, strengthen our communities, and help build a 
foundation for a healthy, vibrant and equitable future.
    Thank you.
    [The prepared statement of Mr. Winkelman follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Senator Carper. Thank you, Mr. Winkelman.
    Last, but not least, Ray Kuntz. Welcome, Mr. Kuntz, we are 
glad to see you.

 STATEMENT OF RAY KUNTZ, CHIEF EXECUTIVE OFFICER, WATKINS AND 
                        SHEPARD TRUCKING

    Mr. Kuntz. Thank you.
    Chairman Carper and other members of the committee, thank 
you for this opportunity to testify before you today. I will 
summarize my written statement and ask that the full statement 
be submitted for the record.
    Senator Carper. Without objection. In fact, all of your 
entire full statements will be submitted for the record.
    Mr. Kuntz. ATA strongly supports efforts to reduce 
greenhouse gases and to make our country more energy 
independent.
    Trucking employs nearly 9 million people and moves 
approximately 11 billion tons of freight annually. Trucking 
delivers nearly 70 percent of all tonnage in America. Eighty 
percent of our Nation's communities receive all of their goods 
exclusively by truck. And in my State of Montana, 87 percent of 
manufactured tonnage is moved by truck. Roughly 96 percent of 
motor carriers have 20 or fewer trucks and are considered small 
businesses.
    The trucking industry is aggressively working to reduce 
fuel consumption and our carbon output. In 2008, my own company 
was one of 27 companies, nationwide companies, which received 
EPA's SmartWay Excellence Award for the reduction of fuel 
consumption and greenhouse gases. We have reduced our fuel 
consumption 14 percent in the last 2 years.
    How did we do it? We control our speed below 65 miles an 
hour, we employed idling reduction technology, we purchased 
fuel efficient tires, and we started a driver education system 
that made our drivers more fuel efficient.
    Our company certainly shares the goal of further reducing 
our greenhouse gas emissions. It is very simple. If we reduce 
our fuel consumption, we reduce our costs. We reduce our carbon 
output. But here is our challenge. We do not build engines. We 
do not refine fuel. But we do pay the price of any increased 
fuel costs due to climate change legislation.
    Studies show that climate change legislation could 
dramatically increase our fuel costs. Our company burns 
approximately 10 million gallons of fuel per year. A 50 cent 
per gallon increase would cost our company $5 million a year. A 
$1 per gallon increase would cost our company $10 million per 
year, much more than we have made in the last 5 years. And in 
spite of my company meeting our environmental goals, our 
company will still be penalized under some climate laws.
    This committee has the unique position in that you will 
consider both climate change legislation as well as highway 
reauthorization. As you know, the American Trucking Association 
has indicated its willingness to support an increase in fuel 
taxes to pay for the much-needed infrastructure improvements. 
However, if climate change legislation results in significant 
increases in our fuel costs, this could very well jeopardize 
our ability to absorb additional fuel cost increases to fund 
infrastructure improvements.
    Another area that I would quickly like to address is the 
notion that we can address the transport sector's carbon 
footprint by simply diverting large amounts of freight to other 
modes. The reality is that if inter-modal rail tonnage were to 
double by the year 2020, the market share of inter-modal would 
be 1.8 percent. Trucking would still be 71 percent.
    And in rural States like Montana, where I come from, that 
is not even an option. We are served by one railroad, and that 
railroad will not even stop in Montana to deliver inter-modal 
freight and pick it up, and it has no plans of doing so in the 
future.
    ATA has come up with a very aggressive sustainability plan. 
No. 1 on the list is a national 65 mile per hour speed limit. 
Over a 10-year period, we would save nearly 12 billion gallons 
of fuel and reduce our carbon by over 116 million tons. It 
would cost our consumers nothing. In fact, it would save them 
money.
    We also want increased participation in the EPA's SmartWay 
Program. We want to spend more money on anti-idling technology 
and get tax incentives to help do that. We support national 
fuel economy standards for trucks, and, most importantly, we 
would like to reduce highway congestion.
    The other area that we are promoting is the use of more 
productive trucks. Montana is very fortunate to be one of the 
States that is allowed to use more efficient trucks. My own 
company uses them. But other States have been prohibited from 
experiencing fuel savings and carbon reductions for almost 20 
years due to a Federal freeze in size and weights.
    In conclusion, I would hope that this committee would 
recognize the inherent differences between stationary and 
mobile sources like trucking and pursue strategies that 
efficiently reduce fuel consumption without penalizing the 
consumer.
    Thank you for your time. I would be glad to answer any 
questions.
    [The prepared statement of Mr. Kuntz follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Senator Carper. Thank you so much for your testimony. It 
was good of you to join us today.
    I am going to ask, for about the next 5 minutes, some 
questions of our panel, and then yield to Senator Voinovich and 
then Senator Merkley.
    This will be a question, really, for Mayor Becker and for 
Mr. Bragdon. Do people call you President Bragdon?
    Mr. Bragdon. Councilor is fine.
    Senator Carper. All right. I am impressed that two very 
different States, Utah and Oregon, and I have been privileged 
to visit them both, but two very different States are at the 
forefront of efforts to cut greenhouse gas emissions from the 
transportation sector.
    Could you describe the public participation that went into 
the development of your plans? And second, in the upcoming 
climate bill, how could the Federal Government further assist 
the efforts that you have already made and incentivize other 
regions of our Nation to maybe take similar actions?
    Mr. Bragdon. Senator Carper, there is a high degree of 
public participation in the public planning in the State of 
Oregon and in our region.
    I should add that, what effectively constitutes a climate 
change strategy did not start as that. It started in the 1990s 
as a multifaceted strategy about conserving infrastructure, 
conserving tax dollars, preserving agriculture and forest land 
that surrounds our area, and making the best use of the urban 
neighborhoods. So, in seeking to achieve those objectives, we 
are also, fortunately, addressing issues of climate change.
    And those efforts have been very popular in our region in 
terms of--as I mentioned, my agency is a popularly elected 
body, and so the policies that are adopted by our body are to 
some extent reflective of the voters who put us in office to 
adopt those policies. So, I would say there has been a high 
degree of public participation going back to the 1990s in terms 
of our region, as well as in the political marketplace, but 
also in the demographic and economic marketplace as well in 
terms of household size, in terms of people wanting to live the 
type of live style that we are talking about.
    Senator Carper. All right. Thanks.
    Mr. Bragdon. In answer to your question, in terms of the 
Federal involvement, I think the Federal Government needs to be 
a better partner in terms of the multi-modal transportation. We 
need to do a better job of judging the costs and benefits of 
different approaches and strategies in transportation. There 
has not been an even playing field since the 1950s.
    Senator Carper. OK. Thanks.
    Mr. Becker. In Utah, we have had an experience that may be 
similar to that of many other communities that have looked 
toward rail, not having a rail history for some time. When our 
first bond election went forward, our first election went 
forward to raise taxes for rail, it failed.
    At about that same time, an organization called the 
Coalition for Utah's Future started something called Envision 
Utah and engaged the community in a massive way in looking at 
the trends we are on with our existing transportation 
infrastructure and land use and land consumption and how those 
trends would play out in the future, and then provided the 
community with alternatives.
    We had, for example, 20,000 respond to a newspaper insert, 
this was pre-major-Internet opportunities, 20,000 people 
responded on the type of future they prefer. This was done as a 
visioning exercise. But by the time the next bond election came 
along, people were beginning to gather around the concept that 
the present trend we were on was not a desirable trend, that 
they favored the idea of some increased density, they favored 
the idea of more transit and other modes of transportation as 
preferable.
    And by the time the next bond election came, it passed 
overwhelmingly. And every bond election for an increase in 
taxes for rail and transit improvements since has passed up and 
down the Wasatch front, which is our urban core. It has been 
done through value-based work, through visioning exercise, 
transportation-specific and otherwise, but along the model of 
this Envision Utah effort.
    I think that underlying concept of really engaging the 
community and having the community look toward its future, and 
then how that future would play out with the different modal 
mix, has happened.
    We have seen the same thing happen quite recently in an 
area that, I think, was to the great surprise of the people in 
Southwestern Utah, which is most rural but is the fastest 
growing county in the United States until just recently, where 
people said they wanted more transit in their future.
    So, I think engaging the community in a thoughtful way that 
looks at the values they want, which now is much more toward 
walkable communities than it was 10 or 15 years ago, makes a 
very large difference. And I think providing assistance in that 
kind of collaborative public engagement can make a big 
difference in helping the people who live in our communities 
look toward the future they want, and then how to realize it.
    Senator Carper. We have been joined by Senator Merkley. 
Senator Merkley, I want to not only welcome you but thank you 
for joining Senators Specter, Lautenberg, Cardin and myself as 
co-sponsors of the CLEAN-TEA legislation. Thank you for joining 
us, and you are recognized for the next 2 hours.
    [Laughter.]
    Senator Merkley. Only 2 hours? And there is so much to say 
and so much to ask.
    Thank you, very much, Mr. Chair, and I want to thank very 
much David Bragdon, President of the Metro Council in Portland, 
for coming and testifying on the work that is being done in the 
Portland metropolitan area, and again draw attention a couple 
of statistics that he mentioned, or some close version of them.
    One is that, where in the United States, between 1990 and 
2007, the total emission of greenhouse gases increased 17 
percent, in the Portland metropolitan area during that same 
period emissions dropped, they dropped about .7 percent. So, it 
is really counter to every trend we are seeing in the country, 
and if you want to frame it in per capita greenhouse emissions, 
it is even more dramatic because there is, unfortunately the 
number is the same so it might be a bit confusion, a 17 percent 
reduction in per capita greenhouse gas emissions.
    In your testimony, President Bragdon, you noted some of the 
features in the metropolitan area. I am sorry I missed your 
testimony. I am rushing here from the Healthcare Committee. 
But, I was wondering if you could talk about this new concept, 
the Intertwine, if you have not already addressed it, and how 
that incorporates the vision of parks, walking trails and 
biking trails, and what it means.
    Mr. Bragdon. Senator Merkley, thank you.
    In terms of our results, yes, we are proud of that. But 
there are other communities, Boulder, Colorado, I think has 
also had significant results, and it shows that this is not 
necessarily all that complicated. But if we stick to some of 
the fundamentals that we have talked about in terms of walkable 
communities and alternative ways of getting around other 
communities, Portland is--we like to think that it is unique, 
but in fact, in many ways, there are things than can be 
emulated.
    With regard to the Intertwine, our approach on the 
environmental front is multifaceted. It is not just a matter of 
transit, it is not just a matter of land use, it is also a 
matter of parks, recreation and preserving natural areas. And 
many other parts of the country are characterized by a very 
fragmented system of parks and natural areas. So, we have been 
working very diligently to bring all the different partners 
together.
    The voters in our region--just as Mayor Becker talked about 
that supported the ballot box in the Salt Lake City area for 
light rail--our voters have been very generous. In addition to 
having voted for light rail at various points in the past, they 
have also voted twice for natural area protection. And we use 
those funds to purchase natural areas.
    The Intertwine is sort of our brand name for working with 
our partners in the non-profit sector and the local government 
and, ideally, with the Federal Government given that one of the 
aspects of our region, we are somewhat distinct in that we are 
surrounded, well not totally surrounded, but we have a lot of 
U.S. Forest Service, BLM, U.S. Fish and Wildlife holdings all 
around us. The Intertwine is a voluntary association of 
government, non-profit and all levels of government to work 
together to manage those lands and allow our citizens the best 
possible use of them.
    Senator Merkley. Thank you. I wanted to give you a chance 
to address that because that is a newly coined term and, in 
addition to kind of creating the interconnectedness of 
officials at various levels working together, I think it also 
captures to some extent the interconnectedness of the 
dimensions of the different components, the walking trails, the 
biking trails, the green spaces and so forth that have grown 
into a system that enables citizens to have very significant 
choices whether it be in recreation or commuting.
    I wanted to ask you what the stages are as the metropolitan 
area in Portland thinks about how it could proceed, should 
proceed and the things that we should really be looking at to 
assist communities like Boulder, like Portland, as they take 
the next step in trying to tackle this challenge.
    Mr. Bragdon. Senator Merkley, I think, in many respects, 
there are some of the things that we have been doing in the 
Portland area where we feel we have been almost pushing against 
Federal policies, many of them dating from the 1950s. And so, 
we like to imagine a world in which we are still trying to do 
the same things that are doing, but we are doing them with 
Federal policy.
    It dates back to the 1970s in our case. We are the first 
locality to trade in interstate funds and use those--instead of 
for one large highway which would have destroyed 1 percent of 
the houses in the city, we used them on a multitude of road and 
street projects throughout the region and a light rail system. 
That was an example of the Federal Government starting to 
provide some flexibility for us to have some local choice 
around that.
    I think Federal legislation needs to encourage more of 
that, give localities the tools to evaluate different choices, 
different strategies, measure among modes and among strategies. 
Quite often, the Federal surface transportation funds on the 
road side is distributed formulaically with certain assumptions 
that tend to bias toward new things rather than maintenance and 
good repair of existing things, that would an example, whereas 
transit programs are discretionary, and, quite rightly, have to 
meet a cost-benefit type of analysis that highways projects 
have not been subjected to. So, I think that leveling that 
playing field would be another example.
    Finally, I think metropolitan areas, in terms of the 
economic impacts, in terms of the potential for climate change, 
that is where the action is going to be. That is where the 
freight is. That is where the people are. So there needs to be 
a title in the new bill that really does address the unique 
needs of metropolitan areas in a multi-modal sense.
    Senator Merkley. Thank you very much. I think that one area 
where the Portland metropolitan area has been pushing in kind 
of opposition, or at least not getting a lot of cooperation, 
was in streetcars. That has changed with Secretary LaHood 
providing a significant reevaluation of the role of streetcars 
and support, recently, for the expansion of the Portland 
Streetcar System.
    Mayor Becker, I think you are considering streetcars in 
your city, and I would like you to just share a little bit of 
what it is you see in that particular feature that could be of 
value.
    Mr. Becker. First, I should tell you, we have really 
appreciated the leadership from the Portland metro area on 
streetcars and light rail, kind of showing the way, providing 
the tracks to the future, really, in many respects, for a 
western city like ours.
    We are looking right now, and are moving as quickly as 
possible, to develop three streetcar systems in Salt Lake City, 
one using an existing abandoned, or actually acquired, railroad 
corridor that will serve a commercial and residential area in 
the south part of our city and with an adjacent city, South 
Salt Lake, with the Utah Transit Authority.
    A second one in the downtown area that could be a 
circulator system, but we are looking more as a way to reach 
out into a neighborhood that is really prime for redevelopment 
and providing better transportation options as well as 
development-oriented transit there. And a third to connect us 
with a neighboring suburban community that has realized that 
roads really do not provide all of the options that they need 
and has made their highest priority a rail connection into 
Downtown Salt Lake.
    We are hoping, and I think with Federal assistance it would 
make a difference in how quickly that we can undertake the 
initiation and development of those, within the next 5 years, 
which is very ambitious but we have been ambitious with our 
rail programs and have seen great success. We want to keep 
building on that.
    As was mentioned, multi-modal approaches are the real key. 
Transit has to be convenient and accessible and safe and 
reliable. To do that, we need service that is frequent and is 
accessible for people. We need bikeway systems in a valley like 
ours, and big wide streets like ours should be so bike-able, 
but people are afraid to get out on the streets to commute.
    So, we are looking to alter our own allocation of resources 
so we invest much more heavily in transit to try to rebalance 
the equation a little bit as Portland has does and as we hope 
happens in future Federal legislation.
    Senator Merkley. Mr. Chair, I see my 2 hours has evaporated 
rather quickly. I will just note that, as you proceed, Oregon 
Iron Works is now building streetcars, the first streetcar 
built in America in a generation, and we certainly invite you 
to come out and have a ride on our streetcar system and talk to 
Oregon Iron Works as well.
    Thank you.
    Senator Carper. Those 2 hours went by quickly, did they 
not?
    Senator Merkley. They certainly did.
    Senator Carper. Thanks for those questions.
    I have a question for Mr. Winkelman next, and the maybe one 
for Mr. Kuntz, and we will bounce around a little bit. If 
Senator Merkley is still around, we will go back to him for 
another 2 hours.
    Senator Merkley. Mr. Chair, I do apologize but I have to 
return to the healthcare markup. My regrets.
    Senator Carper. I understand. God bless you.
    For Mr. Winkelman, if you would. In your opening statement, 
I think you stated that comprehensive travel efficiency 
strategies can reduce vehicles miles traveled by, I think you 
said 10 percent, the equivalent of taking maybe 30 million cars 
off the road. The environmental and economic advantages of 
building new transit systems with freight rail capacity and 
smarter development are, I think, pretty well established.
    These types of projects will provide greenhouse reduction 
over a long period of time. What can we do in the short term, 
though, maybe in the next couple of years, 2 or 3 years, to 
reduce emissions from the transportation sector? And can 
dedicating resources to the transportation sector in the 
upcoming climate bill reduce emissions in the short term?
    Mr. Winkelman. Thank you, Senator. Those long-term 
strategies also deliver in the short term. If you remember----
    Senator Carper. Would you talk about that?
    Mr. Winkelman. Say again?
    Senator Carper. Would you talk about that, please?
    Mr. Winkelman. Thank you. The fuel prices, if you remember 
from last year, and the record transit ridership we saw when 
people responded to that by getting on the bus, getting on the 
train, actually that ridership maintained in spite of the 
declined economy. So, certainly investments in transit, 
improving operation and expanding the system, can reduce short-
term greenhouse gas emissions.
    Look at a place like Arlington, Virginia, which has had 
continuous investment in transit and sidewalks. The people 
there drive 60 percent less than the regional average here. So 
they are spending that much less money. So they have those 
options right now in the real time to respond to. New York City 
increased bicycle commuting by 70 percent in just 5 years. 
Places like Las Cruces, New Mexico had a Safe Walk to School 
Program that reduced CO<INF>2</INF> in 1 year.
    Interestingly, telecommuting right now saves on the order 
of 60 million metric tons of CO<INF>2</INF> per year. That is 
cheap and easy to do, and it is something that also can apply 
in rural areas, especially if you improve broadband coverage, 
for example.
    So, there are a number of examples that can deliver in the 
short term, and I list more in my written testimony. Certainly, 
investment from the climate bill in terms of climate allowances 
can reduce emissions in the short term cost effectively, and as 
I lay out, also leading to long-term economic benefits.
    Senator Carper. OK. Thanks. I would really like to just ask 
a follow up question of you, if I could. In terms of cost 
effectiveness, how do strategies to reduce emissions from the 
transportation sector compare to reductions in other sectors, 
for example with respect to utilities? If designed correctly, 
is designating a significant portion of funds to transportation 
accompanying a climate bill cost effective?
    Mr. Winkelman. Thank you, Senator.
    I think we have all seen the McKinsey Curves, and if you 
look at carbon capture and storage, that can be on the order of 
$60 per tons of CO<INF>2</INF>, solar on the order of $30 per 
ton. As we lay out in our report on Travel Efficiency, 
Sacramento is saving $200 per ton of CO<INF>2</INF>. 
Calculations show that Portland is saving $1,000 per ton 
CO<INF>2</INF> on bicycle infrastructure. And a McKinsey 
analysis for the State of Georgia shows in the area of $20,000 
per ton of CO<INF>2</INF> savings.
    But of course looking at a broader economic perspective of 
avoided infrastructure costs, fuel cost savings, increased tax 
revenues, and leveraged private investment, certainly those 
cost-effective strategies on travel efficiency compare nicely 
to those more expensive options in other sectors. We are going 
to need them all, but certainly you want to do the efficient 
stuff and the stuff that pays back.
    Senator Carper. All right. Thank you.
    Mr. Kuntz, a question for you. I was really struck and 
impressed by some of the strategies that you have employed in 
your company to reduce fuel consumption, energy consumption. I 
think you mentioned tires, I think you mentioned anti-idling 
strategy, and I think you mentioned--I will paraphrase this--
driving habits, the way that your drivers are driving the 
vehicles. Talk about the latter for us, if you would.
    Mr. Kuntz. Yes, there are several things that drivers, both 
in cars and commercial vehicles, do and can do that make their 
fuel consumption a lot worse or a lot better. And a lot of 
this, in trucking, is their energy to speed up and slow down a 
truck. That costs a lot. So, if you can drive more consistently 
and not be speeding up and braking, speeding up and braking, 
and things like that, it drastically reduces energy.
    Unfortunately, the congestion that we are being asked to 
drive in gets worse and worse. It is harder for us to not do 
that type of behavior. So, it is more of a consistent driving 
pattern that does not burn energy that we try to teach our 
drivers.
    Senator Carper. I am always struck by drivers, when I see 
people at a street with traffic lights or stop signs, or even 
out on the more open highways, how people will accelerate only 
to have to stop in like 100 or 200 yards, or slow down and come 
to a stop. It never made much sense to me.
    I drive my wife crazy because I do not do that. And like 
you suggested, I try to keep at a fairly even speed so that I 
do not burn out my brakes, and I actually level out my fuel 
consumption as well.
    I just want to be able to give my wife your phone number so 
the next time she starts really carping at me, I will say, call 
Ray Kuntz and he will straighten this out.
    [Laughter.]
    Mr. Kuntz. Thank you. And we might have you talk to our 
driver's class, too.
    Senator Carper. Well, good, maybe we can do a tag team 
here.
    I think that it is very clear that you are very 
knowledgeable of the role of the trucking industry and freight 
movement. Let me just ask you, in order to reduce 
transportation emissions and improve product delivery, does the 
U.S. need more inter-modal centers to transfer freight between, 
say, air and rail and trucks?
    Mr. Kuntz. We put our trailers on rail, and I think the 
reality is that we need infrastructure investment in the rail 
as well as we do our highways. As I told you earlier, even if 
double the amount of the trailers that we put on the rail, we 
would still be only looking at 1.8 percent. The other reality 
is that it is going to take a lot of money for the railroads to 
be able to double their amount of infrastructure to handle 
doubling of capacity.
    So, I think you have to look at an entire transportation 
package when you are looking at transportation, rail, truck, 
you know, inter-modal, steamship lines, everything. But what I 
referred to earlier is that the idea that we can just randomly 
pull 10 percent off trucks and say that this is going to fix 
our problem is a little ludicrous because there is no way to do 
that with our existing infrastructure.
    That is what we have to be careful of. I think it is very 
important that this committee stays on the realities and looks 
at opportunities to reduce costs of freight and not increase 
our costs of operations.
    Senator Carper. All right. Thank you.
    My last question is probably for Mr. Winkelman, but maybe 
also be for Mr. Bragdon and Mayor Becker. If you want to take a 
shot at this, Mr. Winkelman, you can lead off.
    Do you believe that reducing emissions from the 
transportation sector through smarter development forces 
Americans into behavior that they do not want, they do not 
want, or are these strategies about providing increased 
mobility involuntary alternatives to driving? In Utah and 
Oregon, have residents embraced these concepts? So, those are 
my questions. Mr. Winkelman, if you want to take the first shot 
at that.
    Mr. Winkelman. Thank you, Senator. In my written testimony, 
I cite some of the real estate market studies, economic 
studies, demographic studies that show that actually maybe one-
third to one-half of the country wants a more walkable 
community, wants a more compact development where they can 
drive shorter distances, where they can walk to the park. So, 
let us just meet that 40 percent of the market, say, before we 
worry about forcing something on anyone else.
    The point is that a lot of people want this, as my 
colleagues to my right have pointed out, an experience that 
they have seen in their communities. The National Association 
of Realtors, in a 2007 study, shows that 83 percent of 
Americans want to live in communities where they can drive 
less. And a leading developer, Chris Weinberger, shows there is 
really this pent-up demand for more compact development. In 
fact, we may have plenty of housing stock of the large lot 
detached, but we are going to need to have more of the 
townhouses, more of the infill, whether it is in city center or 
rural village.
    There is also evidence that sort of more transit-oriented 
places with rich transportation choices have held up better in 
terms of real estate values under the latest downturn in places 
like Boston, L.A., and Denver. So, the economic, the 
environmental, the convenience and household cost issues all 
come together. So, there is a significant chunk of the market 
that wants this and can help reduce greenhouse gases if we 
provide it.
    Senator Carper. Thank you.
    Mr. Bragdon.
    Mr. Bragdon. Senator Carper, I would agree. As I said 
before, Portlanders, we like to think we are unique. But in 
many ways we are typical Americans, and we want the things that 
typical people want, which is safe and stable neighborhoods, 
the ability to walk around and satisfy your needs in terms of 
shopping and getting work and having a park nearby. Those are 
very traditional things.
    So, what we are talking about here in terms of community 
design really is very typically American. I would say that 
there is a mythology that the development patterns of the last 
30 or 40 years are somehow the product of a market, or the 
invisible hand, but in fact the development patterns that we 
have experienced in this country over the last 30 to 40 years 
are not the product of a market or invisible hand. They are the 
result of very explicit, as well as implicit, Federal policies, 
as well as State and local policies.
    I think the demographics that Mr. Winkelman mentions are 
spot-on in terms of family size changing and the work force 
changing. So, I would agree that this is a direction that has 
been embraced by people and will be borne out by them.
    Senator Carper. All right. Thank you.
    Mayor.
    Mr. Becker. Thank you, Senator. In Utah, I think we have 
seen the same kind of experience and results that we are 
hearing in Oregon and in studies around the country. I 
mentioned Envision Utah. They have done a series of studies 
that are value-based studies, looking at what people value and 
what they want. Then they have gone out and had major public 
involvement, public engagement efforts.
    It has all led to the same conclusion, that people want 
walkable and livable communities. They want other modes of 
transportation. They do not like being caught in congestion. It 
is what has been available to them. As we can offer good 
choices and alternative modes, I think we are finding in Salt 
Lake that we are exceeding the projections for transit use. We 
are finding that as we improve our bikeways, we are getting 
many, many more people using bikeways.
    When I ran for Mayor--I am a cyclist, I did not, before I 
became Mayor, cycle that much as a commuter because I was 
scared to. But what I found when I was walking door-to-door 
running for Mayor, I was so surprised at the number of people 
whose doorstep I went to and said well, what do you want for 
Salt Lake City, and they said, you know something, I like to 
bike, but I do not dare bike in my community.
    Well, as we improve the biking infrastructure, we are 
providing that option for people. And as more and more cyclists 
get on the road, we feel more secure on the road. That kind of 
providing that sort of access for people in terms of 
transportation mode is what I think is going to make the 
difference. It is not that people do not want to use transit or 
do not want to bike or have more walkable communities. On the 
contrary, I think people do. At least we certainly find that in 
our community.
    But we have to provide it. And that means a shift in what 
we invest in so that we provide that as a good alternative. And 
we have certainly seen, as I mentioned and as I am sure you 
know around the world, where the transportation investment has 
been more balanced in terms of modes that people will use more 
transit rather than less over time. Obviously, that has great 
benefits for us in the long term.
    We have also found, if I might add for a minute. I 
mentioned this Clear the Air Challenge that I did with Governor 
Huntsman and County Mayor Caroon. When we put something in 
front of people where there is a little bit of a challenge, 
there is an education component but there is a little bit of a 
challenge, and people begin to compete and say, you know 
something, I am going to use transit 1 day a week, or I am 
going to combine and link my trips together, or I am going to 
bike with my kids to the store, and we have all of these 
anecdotal stories that came out of our Clear the Air Challenge, 
that people jumped on it. Not everyone. But the people who 
wanted to got involved, got excited and found there were great 
alternatives.
    I think we need to give people opportunities and a little 
encouragement and some rewards for changing what has become 
their behavior. And we're hoping that will lead to reductions 
from a citizen-based effort, not just a government-based 
imposition.
    Senator Carper. What is the population of Salt Lake now?
    Mr. Becker. The population of the metropolitan area is 
about 1.5 million. The city itself is about 180,000.
    Senator Carper. And how about Portland?
    Mr. Bragdon. The city of Portland is about 580,000 and our 
metropolitan region on the Oregon side of the river is about 
1.4 million.
    Senator Carper. Mr. Kuntz, where are you from?
    Mr. Kuntz. Helena, Montana.
    Senator Carper. Do you know----
    Mr. Kuntz. Home of Senator Baucus.
    Senator Carper. Home of Senator Baucus. You went to high 
school there. Is there a high school there? What is it called?
    Mr. Kuntz. Yes. Helena High School.
    Senator Carper. Ironically, he is a graduate of Helena High 
School, and he is President of the Senate Finance Committee, 
and the previous chairman of the Senate Finance Committee, Bill 
Roth from Delaware, is also a graduate of Helena High School. 
Imagine that, that within a span of like a couple of years, two 
graduates of Helena High School end up being chairman of the 
Senate Finance Committee, one from either party. And although 
Senator Roth is about 30 years older than Senator Baucus, I 
always accused him of being in the same graduating class.
    [Laughter.]
    Senator Carper. We are grateful to each of you for being 
with us here today. Thank you for bearing with us as we waded 
through that first panel. You were worth the wait, worth the 
wait, and we are grateful for your input.
    We are going to leave the record open for questions for a 
while. I do not know if it is a week or two, but it will be 
open for a while. Some of our colleagues were unable to join us 
because of other commitments but may want to submit some 
questions. If you receive those, we just ask that you respond 
to them promptly.
    Again, thank you very, very much.
    And with that having been said, this hearing is adjourned.
    [Whereupon, at 4:55 p.m., the committee was adjourned.]
    [An additional statement submitted for the record follows:]
                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland
    Madam Chairman, thank you for holding this hearing on the 
transportation piece of the greenhouse gas emissions puzzle and what we 
can do to address this issue. In last week's hearing I raised this 
issue with Secretary of Energy Steven Chu and EPA Administrator Lisa 
Jackson, but we only scratched the surface of this specific issue area.
    It is no coincidence that both our transportation and energy 
infrastructure systems are simultaneously at a crossroads. They are 
connected to each other by what drives them both--fossil fuels. 
Fortunately, this committee has a tremendous opportunity to act on this 
issue.
    It is on the matter of fuel consumption where our Federal policies 
toward these intersecting policies diverge from one another.
    Americans are encouraged to conserve energy, which reduces our 
reliance on foreign oil, reduces carbon emissions, and during these 
trying economic times saves consumers' money. To many, this means 
driving less, purchasing fuel efficient vehicles and using public 
transportation to get around--all of which I support. Unfortunately, 
funding for our surface transportation systems is reliant upon 
sustained, if not increased, fuel consumption in the form of the gas 
tax.
    Because of this divergence in policy, along with the greenhouse gas 
emissions that come from burning fossil fuels, we need to rethink fuels 
and transportation planning and explore better, cleaner, more efficient 
options.
                                 fuels
    Be it coal fired power plants or internal combustion engines, the 
burning of fossil fuels is the greatest source of greenhouse gases from 
human activities. The transportation sector is responsible for 30 
percent of the United States' greenhouse gas emissions. That is why it 
is imperative we shift away from fossil fuels to power vehicles.
    The proposed method for capturing greenhouse gas emissions from the 
transportation sector is by accounting for fuels ``upstream'' where we 
import oil or at the point of production at the refinery. Ultimately, 
the cost is passed down to consumers. These costs would be reduced 
significantly over time as we move toward the production of clean 
fuels.
    We must diversify our transportation power sources to include 
ethanol refined from algae, switch grass and other sources of biomass--
sources that do not have a direct effect on consumer food prices. Plug-
in electric vehicles powered by renewable energy and hydrogen fuel 
cells will also reduce our dependence on foreign oil, reduce our carbon 
emissions, and spur commercial and job growth and marketplace 
competition.
                        transit and smart growth
    While burning fossil fuels is the source of transportation carbon 
emissions, the amount of carbon emissions is a factor of how much time 
people spend in their cars and trucks, especially the extraordinary 
waste of fuel and time spent when motorists are stuck in traffic. 
Secretary Chu's and Administrator Jackson's answers to my question last 
week noted that increased availability and accessibility of public 
transportation would lead to significant carbon emission reductions.
    Last week, the Texas Transportation Institute released its 2009 
Mobility Report, which notes that public transportation saved travelers 
646 million hours in travel time in 2007. This same report had 
troubling news that the DC Metropolitan Area, including Maryland, now 
has the second worst traffic in the Nation. The report goes on to note 
that each motorist in the Maryland-DC-Virginia metro area loses an 
average of 62 hours and wastes an average of 42 gallons of fuel a year 
because they are stuck in traffic. This is despite Metro ridership 
being the second highest in the country beyond New York City.
    According to the American Public Transportation Association, public 
transit currently saves 37 million metric tons of carbon dioxide 
emissions per year. These carbon savings become even greater as more 
and more energy is generated from renewable sources.
    To increase the efficiency of our transportation infrastructure and 
improve accessibility to transit, transportation plans' carbon 
footprint must be taken into consideration prior to approval or receipt 
of Federal transportation funds. Building livable communities that 
promote multi-modal transportation options is essential to reducing the 
transportation sector's carbon emissions.
    And we do not need to reinvent the wheel to achieve these goals. 
The framework established under the Clean Air Act is a fine model for 
also achieving greenhouse gas reductions from a region's transportation 
sector.
    Sweeping improvements in efficiency and pollution reduction to our 
Nation's transportation systems are just as visionary as President 
Eisenhower's concept of a national infrastructure system and is equally 
attainable.
    The opportunity for economic expansion and job growth in these 
sectors is nearly limitless, but we must act now to make sure these 
innovations are domestically developed and produced by hardworking 
Americans.
    I look forward to working with my colleagues to promote a more 
efficient transportation system and secure investments in transit from 
revenues generated by the legislation we construct. Again, I thank the 
Chairman for holding this hearing, and I look forward to our witnesses' 
testimony.

    [Additional material submitted for the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
